   May 27, 2005




Infrastructure and Environment

Defense Finance and Accounting
Service Data Call Submissions and
Internal Control Processes for Base
Realignment and Closure 2005
(D-2005-075)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
       Additional Copies
       To obtain additional copies of this report, visit the Web site of the Department of
       Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
       Secondary Reports Distribution Unit, Audit Followup and Technical Support at
       (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

       Suggestions for Future Audits

       To suggest ideas for or to request future audits, contact Audit Followup and
       Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
       Ideas and requests can also be mailed to:

                         ODIG-AUD (ATTN: AFTS Audit Suggestions)
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                                 Arlington, VA 22202-4704




Acronyms

AFB                 Air Force Base
BRAC                Base Realignment and Closure
COBRA               Cost of Base Realignment Actions
DCT                 Data Collection Tool
DFAS                Defense Finance and Accounting Service
DMPO                Defense Military Pay Officer
DoD OIG             Department of Defense Office of Inspector General
HSA                 Headquarters and Support Activities
ICP                 Internal Control Plan
JCSG                Joint Cross Service Group
JPAT 7              Joint Process Action Team Criterion Number 7
MSA                 Mission Support Accountant
NDA                 Nondisclosure Agreement
OSD                 Office of the Secretary of Defense
TSO                 Technology Services Organization
                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                             May 27,2005

MEMOlb4NDW FOR DIRECTOR, DEFENSE FINANCE AN3 ACCOUNTFNG
               SERVICE
SUBJECT: Report on Defense Finance and Accounting Service Data Call Submissions
         and Internal Control Processes for Base Realignment and Closure 2005
         (Report NO.D-2005-075)

       We are providing this report for information and use. The Defense Finance and
Accounting Service provided comments. We considered management comments on a
dran of this report in preparing the final repold. The complete text of the comments is jn
the Management Comments section of the report.

        We appreciate the courtesies extended to the staff. Questions shonld be directed
to Mr. Douglas P. Neville at (703) 428- 106 1 (DSN 328- 206 f ). See Appendix H for the
report distribution.
                               By direction of the Deputy Inspector General for Auditing:


                                         /Paul?    J CPA
                                              . Granetto. +m-
                                      Assistant Inspector General
                                   Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2005-075                                                        May 27, 2005
   (Project No. D2004-D000FG-0070.000)

             Defense Finance and Accounting Service Data Call
                Submissions and Internal Control Processes
                  for Base Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, Defense Finance and Accounting Service (DFAS) personnel, and anyone
interested in the Base Realignment and Closure (BRAC) process should read this report.
The report discusses the adequacy, completeness, and integrity of data used by Defense
Finance and Accounting Service for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, which states that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was divided into the following data calls–capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls were collectively known as the second data call. We
issued 10 site memorandums for the capacity analysis data call, 6 site memorandums for
the second data call, and 7 site memorandums for the audit revalidation on the capacity
analysis and second data calls. This report summarizes issues related to the entire DFAS
BRAC 2005 process as of March 18, 2005.

DFAS. In 1991, the Secretary of Defense created DFAS to reduce the cost of Defense
Department finance and accounting operations and to strengthen financial management
through consolidation of finance and accounting activities across the Department. DFAS
Headquarters offices are located in Arlington, Virginia. DFAS also has five central
offices located in Cleveland, Ohio; Columbus, Ohio; Denver, Colorado; Indianapolis,
Indiana; and Kansas City, Missouri; and 20 field sites located in the continental United
States, Japan, and Europe. Additionally, DFAS has 61 locations where there are defense
military pay officers, mission support accountants, and personnel performing additional
DFAS functions.

Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data for 85 sites for the capacity analysis and second data calls, and for
28 sites for the scenario specific data call. In addition, we evaluated DFAS compliance
with applicable internal control plans (ICP) at seven sites for the capacity analysis data
call, six sites for the second data call, and five sites for the scenario specific data call.
After our visit, DFAS BRAC 2005 data were generally supported and reasonable.
However, 3 questions for the capacity analysis data call, 5 questions for the second data
call, and 13 questions for the scenario specific data call remain not fully supported.

The DFAS ICP properly incorporated and supplemented the Office of the Secretary of
Defense ICP. In addition, the data collection process for the sites visited generally
complied with the DFAS ICP. Data integrity existed between DFAS responses from its
data collection tool and the Office of the Secretary of Defense Database. DFAS sites did
not always follow the ICPs. Specifically, BRAC data were not always marked,
safeguarded, and secure. In addition, individuals with access to BRAC data did not
always have signed nondisclosure agreements. After our review, DFAS took action to
correct some of the deficiencies noted. We concluded our review of DFAS data on
March 18, 2005. Subsequent to our site visits, changes could have been made to the Joint
Process Action Team Criterion Number 7 data and were not verified. We believe the
instances of noncompliances with the ICP could be material and could potentially affect
the reliability and integrity of the data provided by DFAS for the BRAC 2005 process.
However, we are not making a determination on the materiality and impact the lack of
supporting documentation could have on the reliability of the data provided by DFAS for
BRAC 2005. We are issuing no recommendations.

Management Comments. Although no comments were required, the Director, DFAS
stated that he did not concur with our finding. Also, the Director did not agree with the
statement in the draft report that the instances of noncompliance with the DFAS ICP
could be material and could potentially affect the reliability and integrity of the data
provided by DFAS for the BRAC 2005 process. We included the full text of the DFAS
comments in the Management Comments section of this report.

Audit Response. The supportability of the answers provided by DFAS was based on
four factors, which applied to each of the questions judged as not fully supported.
Throughout the BRAC process, the auditors worked closely with DFAS personnel to
resolve discrepancies and kept DFAS personnel informed of any issues encountered.
Many of these discrepancies were satisfactorily resolved.

The noncompliance issues presented in our report represent instances where the chain of
accountability was broken or the integrity of the BRAC information was not protected
from premature disclosure. However, we cannot accurately assess the impact of these
noncompliances. Therefore, we believe that the instances of noncompliance with the
DFAS ICP could have potentially affected the reliability and integrity of the data
provided by DFAS for the BRAC 2005 process.




                                              ii
Table of Contents

 Executive Summary                                                      i

 Background                                                            1

 Objectives                                                            3

 Finding
      The Defense Finance and Accounting Service BRAC 2005 Data Call
        Submissions and Internal Control Processes                     4

 Appendixes
      A. Scope and Methodology
         11
      B. Prior Audit Coverage                                          16
      C. BRAC 2005 Data Call Questions Not Fully Supported             19
      D. Capacity Analysis Data Call                                   22
      E. Second Data Call                                              29
      F. Scenario Specific Data Call                                   38
      G. Revalidation of Capacity Analysis and Second Data Calls       41
      H. Report Distribution                                           46


 Management Comments
      Defense Finance and Accounting Service                           47
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    deadline for the Secretary of Defense to submit recommendations to the
    independent Commission was May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, was to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG)–Education and Training, Headquarters and
    Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs addressed issues that affect common business-
    oriented support functions, examined functions in the context of facilities, and
    developed realignment and closure recommendations based on force structure
    plans of the Armed Forces and on selection criteria. To analyze the issues, each
    JCSG developed data call questions to obtain information about the functions that
    it reviewed.

    BRAC Data Calls. The BRAC 2005 process, mandated for the United States and
    its territories, was divided into the following data calls–capacity analysis,
    supplemental capacity, military value, Cost of Base Realignment Actions
    (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and scenario
    specific. The supplemental capacity, military value, COBRA, and JPAT 7 data
    calls were collectively known as the second data call. The Services, Defense
    agencies, and Defense-Wide Organizations used either automated data collection
    tools or a manual process to collect data call responses. Each data call had a
    specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered with the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investments) of proposed
               realignment and closure actions.
                                         1
                    •   The JPAT 7 data call gathered data to assess the community’s ability
                        to support additional forces, missions, and personnel associated with
                        individual scenarios.

                    •   The scenario specific data call requested data related to one or more
                        potential closure or realignment actions identified for formal analysis
                        by a JCSG. 1

           Internal Control Plans. Before the BRAC data calls were released to the
           Services, Defense agencies, and Defense-Wide Organizations, OSD required
           them to prepare internal control plans (ICP) that incorporated and supplemented
           the OSD ICP. The OSD ICP was distributed as part of the Under Secretary of
           Defense for Acquisition, Technology, and Logistics’ memorandum
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One—Policy, Responsibilities, and Procedures,” April 16, 2003.
           To comply with that requirement, Defense Finance and Accounting Service
           (DFAS) prepared the “Defense Finance and Accounting Service BRAC 2005
           Internal Control Plan,” on December 23, 2003, and then updated the plan on
           February 24, 2004; May 14, 2004; July 20, 2004; and December 16, 2004. For all
           data calls, DFAS used a modified version of the online Army Data Collection
           Tool (DCT).

           Department of Defense Office of Inspector General Responsibility. The
           “Transformation Through Base Realignment and Closure Policy Memorandum
           One—Policy, Responsibilities, and Procedures,” April 16, 2003, requires the
           Department of Defense Office of Inspector General (DoD OIG) to provide ICP
           development and implementation advice, review the relevance and completeness
           of BRAC data, and evaluate the data certification processes. In addition, the
           memorandum requires DoD OIG personnel to assist the JCSGs and DoD
           Components as needed. This report summarizes the results of the DoD OIG
           efforts related to the DFAS BRAC 2005 process.

           DFAS. In 1991, the Secretary of Defense created DFAS to reduce the cost of the
           Defense Department finance and accounting operations and to strengthen
           financial management through consolidation of finance and accounting activities
           across the Department. DFAS is financed by its customers rather than through
           direct appropriations. This service-provider relationship with its customers
           motivates DFAS to seek continuous innovation and improvement in the quality of
           services it provides. DFAS Headquarters offices are located in Arlington,
           Virginia. DFAS also has five central offices located in Cleveland, Ohio;
           Columbus, Ohio; Denver, Colorado; Indianapolis, Indiana; and Kansas City,
           Missouri; and 20 field sites located in the continental United States, Japan, and
           Europe. Additionally, DFAS has 61 locations where there are defense military
           pay officers (DMPO), mission support accountants (MSA), and personnel
           performing additional DFAS functions. See Appendix D for a list of sites visited
           and sites that responded to the questions.



1
    DFAS scenario was to consolidate DFAS 24 central and field operating sites into 3 sites.

                                                       2
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DFAS collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DFAS complied with the
    OSD and DFAS ICPs. This report is one in a series on data call submissions and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the scope and methodology, our review of management controls, and Appendix B
    for prior coverage.




                                       3
           The Defense Finance and Accounting
           Service BRAC 2005 Data Call
           Submissions and Internal Control
           Processes
           After our review, the responses provided by DFAS for the BRAC 2005
           data calls were generally supported and reasonable. However, DFAS did
           not adequately support all responses submitted to OSD. Specifically,
           responses for

               •   three capacity analysis data call questions at DFAS Kansas City
                   remain not fully supported;

               •   five second data call questions at DFAS Indianapolis remain not
                   fully supported; and

               •   13 scenario specific data call questions at some sites remain not
                   fully supported.

           This occurred because DFAS provided inconsistent and inadequate
           methodologies, and provided inadequate and contradictory supporting
           documentation. We are not making a determination on the materiality and
           impact the lack of supporting documentation could have on the reliability
           of the data provided by DFAS for BRAC 2005.

           The DFAS sites we visited generally complied with the DFAS ICP, and
           the DFAS ICP properly incorporated and supplemented the OSD ICP.
           Data integrity existed between DFAS responses from its DCT and the
           OSD Database. The DFAS sites did not always follow the DFAS ICP.
           Specifically, BRAC data were not always marked, safeguarded, and
           secured. In addition, individuals with access to BRAC data did not always
           have signed nondisclosure agreements (NDA). After our review, DFAS
           took action to correct some of the deficiencies noted. We believe the
           instances of noncompliances with the DFAS ICP could be material and
           could potentially impact the reliability and integrity of the DFAS data
           used in the BRAC 2005 analysis.


The Defense Finance and Accounting Service BRAC 2005 Data
  Call Submissions
    After our review, the BRAC 2005 data call responses provided by DFAS for the
    capacity analysis data call, the second data call, and the scenario specific data call
    were generally supported and reasonable. However, 21 questions remain not fully
    supported (see Appendix C for details on those questions). At each site, DFAS
    Headquarters assigned specific questions, and we evaluated the validity, integrity,
    and supporting documentation for the assigned questions. Specifically, we

                                          4
           compared responses to supporting documentation and reviewed “Not Applicable”
           (N/A) responses to determine whether the responses were reasonable and not
           default N/A responses.

           Capacity Analysis Data Call. After our review, the DFAS sites that responded
           to the capacity analysis data call questions generally provided adequate support.
           However, three questions remain not fully supported. For the capacity analysis
           data call, DFAS Headquarters received 753 questions from the OSD BRAC
           Office. DFAS Headquarters reviewed the questions to determine the applicability
           of the questions to DFAS and determined that 164 were applicable to DFAS.
           DFAS then assigned questions to DFAS Headquarters, the 5 DFAS central
           offices, 18 DFAS field offices, and 61 additional DFAS locations. All sites are
           located in the continental United States. We evaluated the responses and support
           provided by the 85 locations (see Appendix D). However, DFAS assigned DFAS
           Headquarters, the 5 DFAS central sites, and 1 additional DFAS function site to
           enter the responses to BRAC questions into the DCT for all 85 responding sites.
           DFAS maintained the supporting documentation where the responses to the
           BRAC questions were entered into the DCT, in accordance with the requirements
           of the DFAS ICP. We visited those sites that entered the responses to BRAC
           questions into the DCT and where the supporting documentation was maintained.
           At the sites, we identified inadequately supported and incorrect responses. As a
           result of our site visits, DFAS sites revised responses and provided supporting
           documentation to correct most of the issues. We verified and concurred with the
           majority of the changes. However, DFAS Kansas City question numbers
           359, 361, and 370 remain not fully supported (see Appendix C).

           The HSA JCSG informed us that DFAS responses to 28 questions were no longer
           needed or would not be used for the HSA JCSG analysis. 2 We initially
           determined that 9 of those 28 questions were not fully supported for DFAS. 3 As a
           result, we determined that no further action was required on behalf of DFAS for
           those nine questions.

           Second Data Call. After our review, DFAS sites that responded to the second
           data call questions generally provided adequate support. However, five questions
           remain not fully supported. For the second data call, DFAS Headquarters
           received 149 questions. DFAS Headquarters reviewed the questions to determine
           the applicability of the questions to DFAS and determined that 92 questions
           applied to DFAS. DFAS then assigned questions to DFAS Headquarters, the
           5 DFAS central offices, 18 DFAS field offices, and 61 additional DFAS locations.
           All sites are located in the continental United States. We evaluated the responses
           and support provided by the 85 locations (see Appendix E). However, DFAS
           assigned DFAS Headquarters, the 5 DFAS central sites, and 1 DFAS additional
           function site the task of entering the responses to BRAC questions into the DCT
           for all 85 responding sites. DFAS maintained supporting documentation where
           the responses to the BRAC questions were entered into the DCT, in compliance

2
    Questions 347 through 356, 358, 360, 362 through 366, 371, 376, 379, 382, 383, 385 through 387, 393,
    478, and 481.
3
    Questions 347, 350, 351, 353, 354, 360, 362, 376, and 393.
                                                      5
           with the DFAS ICP. We visited those sites that entered the responses to BRAC
           questions in the DCT and where the supporting documentation was maintained.
           However, we did not visit the DFAS additional function site. DFAS sent the
           supporting documentation for the questions entered at that site to one of the
           DFAS central sites for review. 4 At the sites, we identified inadequately supported
           and incorrect responses. As a result of our visits, DFAS sites revised responses
           and provided supporting documentation to correct most of the issues. We
           concurred with the majority of the changes. Some questions at DFAS
           Indianapolis remain as outstanding issues; HSA JCSG military value question
           numbers 1905, 1912, 1913, 1916, and 1917 remain not fully supported (see
           Appendix C).

           We did not verify supporting documentation for responses to certain questions
           because DoD OIG determined that the responses to those questions requested
           supporting documentation such as calendars, day planners, and meeting minutes
           that could not be verified. Specifically for DFAS, those were HSA JCSG military
           value questions 1907 5 and 1908. 6 Also, the JPAT 7 group replaced question
           numbers 1418 and 1419 with question numbers 1420 and 1421. Subsequent to
           our audit, the JPAT 7 group requested that activities update some of their
           responses based on new guidance. We did not review the updated responses or
           the supporting documentation.

           Scenario Specific Data Call. After our review, the DFAS sites that responded to
           the scenario specific data call questions generally provided adequate support,
           except for the 13 questions that remain not fully supported. For the scenario
           specific data call, DFAS Headquarters received 1 scenario with 109 questions.
           DFAS Headquarters assigned questions to DFAS Headquarters, 5 DFAS central
           sites, 18 DFAS field sites, and 4 additional DFAS locations, all located in the
           continental United States. We evaluated the responses and support provided by
           the 28 locations (see Appendix F). DFAS assigned DFAS Headquarters, and 4 of
           the 5 DFAS central sites to enter the responses to BRAC questions into the DCT
           for all 28 responding sites. 7 DFAS maintained supporting documentation where
           the responses to the BRAC questions were entered into the DCT, in compliance
           with its ICP. We visited those sites. DFAS Headquarters was asked to verify
           personnel and leased space information as of March 18, 2005. In addition, DFAS
           provided a list of one-time moving costs and special space requirements
           associated with the scenario. At the sites, we identified inadequately supported
           and incorrect responses. As a result of our site visits, DFAS sites revised
           responses and provided supporting documentation to correct most of the issues.
           We verified and concurred with the majority of the changes. A few questions at


4
    Supporting documentation for answers entered at Pensacola Saufley Field was sent to DFAS
    Indianapolis, Indiana.
5
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington D.C., area.
6
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.
7
    DFAS Headquarters did not task DFAS Denver to enter scenario specific data call responses into the
    DCT.

                                                       6
            DFAS Cleveland and DFAS Indianapolis remain as outstanding issues (see
            Appendix C). Specifically, responses to the following questions remain not fully
            supported.

                •    DFAS Cleveland scenario specific question numbers 6125 through 6131.

                •    DFAS Indianapolis scenario specific question numbers 6199 through
                     6201, and 6205 through 6207.

            HSA JCSG informed us that DFAS responses to 22 questions were no longer
            needed or would not be used for the HSA JCSG analysis. 8 We initially
            determined that 7 of those 22 questions were not fully supported for DFAS. 9 As a
            result, we determined that no further action was required on behalf of DFAS for
            those seven questions.


Internal Control Processes
            The DFAS data collection processes generally complied with the DFAS ICP for
            the capacity analysis, second, and scenario specific data calls. In addition, the
            DFAS ICP properly incorporated and supplemented the OSD ICP.

            We evaluated compliance with the DFAS ICP at seven sites for the capacity
            analysis data call, six sites for the second data call, and five sites for the scenario
            specific data call. During the capacity analysis and second data calls, we
            evaluated responses and supporting documentation submitted by 85 sites. During
            the scenario specific data call, we evaluated responses and supporting
            documentation submitted by 28 sites. Responses to BRAC questions for all of the
            responding sites were entered into the DCT at seven sites for the capacity
            analysis, and second data calls, and at five sites for the scenario specific data call.
            We visited those sites where responses to BRAC questions were entered into the
            DCT, and evaluated DFAS BRAC 2005 data collection processes to determine
            whether they complied with the OSD and DFAS ICPs. 10 The evaluation included
            reviewing whether the DFAS ICP incorporated and supplemented the OSD ICP,
            and whether sites completed NDAs, and marked and safeguarded BRAC data.
            Specifically, we ensured that DFAS secured BRAC information in locked file




8
    Questions 6170, 6187, 6195, 6214 through 6227, and 6229 through 6233.
9
    Questions 6187, 6215, and 6217 through 6221.
10
      We did not visit the Pensacola Saufley Field Site during the second data call. Supporting documentation
     for responses entered in the data collection tool by Pensacola Saufley Field was sent to DFAS
     Indianapolis to be reviewed by auditors.
                                                       7
cabinets, marked all BRAC data with “Deliberative Document–For Discussion
Purposes Only–Do Not Release Under FOIA,” obtained signed NDAs from
personnel involved with BRAC, and secured BRAC rooms properly.

Completeness of ICP. The DFAS BRAC 2005 ICP outlined management
controls designed to provide accountability for DFAS information used in the
BRAC 2005 process. The DFAS ICP established BRAC 2005 responsibilities of
DFAS organizations and control mechanisms to safeguard DFAS BRAC
information. The DFAS ICP outlined requirements for verifying the accuracy of
data and information. In addition, the DFAS ICP identified required
documentation to justify changes made to data. Specifically, the DFAS ICP
included direction on the completion of NDAs; the maintenance of e-mail
information; and the collection, marking, safeguarding, and maintenance of
BRAC data.

However, the DFAS ICP did not require non-DFAS employees to submit NDAs
to DFAS personnel before obtaining BRAC data. In addition, the DFAS ICP did
not discuss security procedures non-DFAS employees must follow when handling
BRAC data. We consider these ICP issues to be immaterial.

Compliance with ICP. The DFAS data collection process generally complied
with the DFAS ICP procedures. However, during the capacity analysis data call,
second data call, and scenario specific data call, we found several
noncompliances with the DFAS ICP. Specifically, during the capacity analysis
data call, a DFAS employee took home data to be used to answer BRAC
questions in order to meet deadlines. DFAS did not request that the DFAS
Internal Review team perform a review of the data prior to pre-certification of the
data. In one instance, auditors found the BRAC room and file cabinets open upon
their arrival at the site. In another instance, keys to file cabinets were lost, and a
decision was made to obtain a duplicate of the key instead of changing the lock.
Open burn bags containing BRAC data were discovered inside the BRAC room.
Individuals involved with the BRAC process did not always provide signed
NDAs. BRAC data were not always protected with appropriate warnings or
secured in locked file cabinets. DFAS did not keep access logs to file cabinets.
During the second and scenario specific data calls, BRAC documentation was not
locked in file cabinets when not in use. Also, during the second data call DFAS
did not request written authorization from the business line’s pre-certifiers before
making corrections of errors after the DCT was certified. Further, during the
scenario specific data call, we noticed that DFAS maintained BRAC
documentation with other non-BRAC material, an employee with the key to a
lockable BRAC cabinet had not signed an NDA, and, at the completion of our
audit field work, DFAS had not recertified changes made to data after
certification. After our review, DFAS took action to correct some of the
deficiencies noted. We believe that these issues could be material.




                                      8
Data Integrity
            Data integrity existed between the DFAS responses from its DCT and the OSD
            Database. 11 The DoD OIG Data Mining Division reviewed the integrity of the data
            transferred from the DFAS DCT to the OSD Database. From the 163,055 responses
            provided by DFAS, the Data Mining Division identified the following discrepancies:

                •    54,024 responses were in the DFAS DCT but were not in the OSD
                     Database, and

                •    3,248 responses were in the OSD Database but were not in the DFAS
                     DCT.

            We evaluated each of the discrepancies and determined there would be no
            material impact on the JCSG analysis or integrity of the data. (See Appendix A
            for additional details.) The DoD OIG Data Mining Division has issued a separate
            memorandum on its comparison between the DFAS data and the OSD Database.


Conclusion
            After our review, DFAS BRAC 2005 data call responses were generally
            supported and reasonable. In addition, the data collection processes generally
            complied with the DFAS ICP, and the DFAS ICP properly incorporated and
            supplemented the OSD ICP.

            We discussed the identified ICP noncompliances and lack of supporting
            documentation with DFAS management. DFAS management did not concur with
            our findings on capacity analysis data call questions 359, 361, and 370; and with
            the ICP noncompliance issue stating that a DFAS employee took home BRAC
            data. DFAS management believed that the support provided was adequate for the
            questions.

            We believe the noncompliance with the DFAS ICP issues could be material and
            this could potentially impact the reliability and integrity of the data provided by
            DFAS for BRAC 2005. However, we are not making a determination on the
            materiality and impact the lack of supporting documentation could have on the
            reliability of the data provided by DFAS for BRAC 2005.




11
      Data integrity is the condition existing when data is unchanged from its source and has not been
     accidentally or maliciously modified, altered, or destroyed.
                                                        9
Management Comments on the Finding and Audit Response
    Management Comments. The Director, DFAS provided comments concerning
    the supportability of the answers and on the internal control issues discussed in
    the report. Also, the Director did not agree with the statement in the draft report
    that the instances of noncompliance with the DFAS ICP could be material and
    could potentially affect the reliability and integrity of the data provided by DFAS
    for the BRAC 2005 process. The Director further stated that there is no evidence
    to support that these isolated instances could be material.

    Audit Response. The supportability of the answers provided by DFAS was
    based on four factors:

       •   availability of supporting documentation from all responding sites,

       •   conformance with interpretations and assumptions made by OSD BRAC
           officials,

       •   mathematical accuracy, and

       •   the logic and reasonableness of the answers provided.


    In all of the instances discussed by the Director, one or more of these factors
    applied. In some situations, the support provided did not agree with the answers
    submitted. In other instances, auditors’ judgment prevailed concerning the logic
    and reasonableness of the answers. Throughout the BRAC process, the auditors
    worked closely with DFAS personnel to resolve discrepancies. For example, in
    our initial review of the capacity analysis data call, we identified answers to
    104 questions that were not fully supported by DFAS. However, after working
    closely with DFAS personnel, we judged answers to only three questions as being
    not fully supported. Throughout the process, the auditors kept DFAS personnel
    informed of support, interpretation, accuracy, and reasonableness issues. Many of
    these disagreements were satisfactorily resolved.

    As defined in the DFAS BRAC 2005 ICP, approved December 23, 2003, the
    DFAS ICP was intended to establish an “unbroken chain” of accountability for
    DFAS information and analysis used in the BRAC 2005 process. The DFAS ICP
    was also intended to ensure the accuracy and completeness of all information
    upon which the Secretary’s BRAC 2005 recommendations were based and to
    protect the integrity of the BRAC process by limiting the premature disclosure of
    BRAC 2005 information.

    The noncompliance issues presented in our report represent instances where the
    chain of accountability was broken or the integrity of the information was not
    protected from premature disclosure. We agree with the Director that DFAS
    personnel took prompt action to resolve these issues as quickly as they were
    presented. However, we cannot accurately assess the impact of these violations.
    A single instance of a file cabinet or room being left unsecured, or keys being
    misplaced, could have resulted in a compromise of the BRAC 2005 process.

                                        10
Appendix A. Scope and Methodology
            We evaluated the validity, integrity, and supporting documentation of DFAS
            BRAC 2005 data. The evaluation included comparing responses to supporting
            documentation and reviewing “Not Applicable” (N/A) responses to determine
            whether responses were reasonable and not default N/A responses. We ensured
            that the DFAS ICP incorporated and supplemented the OSD ICP. We evaluated
            site data collection procedures to determine whether they complied with DFAS
            ICP procedures to include reviewing the completion of NDAs, and collecting,
            marking, safeguarding, and maintaining BRAC data. In addition, we interviewed
            the personnel responsible for preparing and certifying the responses to the data
            calls. Further, we verified calculations of capacity analysis, second, and scenario
            specific data.

            Capacity Analysis Data Call. DFAS Headquarters received 753 capacity
            analysis data call questions. DFAS Headquarters reviewed the data call questions
            and determined that 164 questions were applicable to DFAS. DFAS then
            forwarded specific questions to 85 sites: DFAS Headquarters, the 5 central sites,
            18 field sites, and 61 sites where there are MSAs, DMPOs, and personnel
            performing additional DFAS functions. However, DFAS assigned DFAS
            Headquarters, the 5 central sites, and 1 additional location (Pensacola Saufley
            Field), to be the data entry sites for all the 85 locations. Those seven sites
            received responses to questions and documentation to support those responses,
            entered the responses to the questions into the DCT, and kept the supporting
            documentation for the sites for which they entered the responses. Specifically,
            DFAS assigned DFAS Headquarters to enter responses to 43 questions into the
            DCT, the 5 central sites to enter responses to 114 questions, and the additional
            function site (Pensacola Saufley Field) to enter responses to 7 questions. For
            12 of the 164 questions, responses were entered into the DCT by more than one
            location.

            We visited DFAS locations where the responses to the BRAC questions were
            entered into the DCT and the supporting documentation was maintained (see
            Appendix D). We evaluated the assigned data call questions at each DFAS site
            visited. At the sites, we identified inadequately supported and incorrect
            responses. As a result of our site visits, DFAS sites revised responses and
            provided supporting documentation to correct most of the issues. We verified and
            concurred with the majority of the changes. We issued 10 site memorandums to
            summarize the results of these site visits. However, we did not validate DFAS
            Headquarters’ selection process. Moreover, we did not physically verify the
            existence of all safes, vaults, and respective square footage reported by DFAS
            sites.
            HSA JCSG informed us that DFAS responses to 28 questions were no longer
            needed or would not be used for the HSA JCSG analysis. 12 We initially

12
      Questions 347 through 356, 358, 360, 362 through 366, 371, 376, 379, 382, 383, 385 through 387, 393,
     478, and 481.
                                                      11
           determined that 9 of those 28 questions were not fully supported for DFAS. 13 As
           a result, we determined that no further action was required on behalf of DFAS for
           those nine questions.

           Second Data Call. DFAS Headquarters received 149 questions from the JCSGs.
           Specifically, DFAS received HSA JCSG military value question numbers (1900
           through 1982), HSA JCSG supplemental capacity question numbers (4069
           through 4105), Education and Training JCSG supplemental capacity question
           number (4000), COBRA question numbers (1500 through 1507), and JPAT 7
           question numbers (1400 through 1419). The JPAT 7 group replaced questions
           1418 and 1419 with questions 1420 and 1421 because organizations were
           encountering problems responding to questions 1418 and 1419.

           DFAS reviewed the questions and determined that 92 were applicable to DFAS.
           DFAS then forwarded the questions to 85 sites: DFAS Headquarters, the 5
           central sites, 18 field sites, and the 61 additional sites. However, DFAS assigned
           DFAS Headquarters, the 5 central sites, and 1 additional function site (Pensacola
           Saufley Field), to be the data entry sites for all the 85 locations. Those seven sites
           received responses to questions and documentation to support those responses,
           entered the responses to the questions into the DCT, and maintained the
           supporting documentation for the sites for which they entered the responses, in
           accordance with the DFAS ICP. Specifically, DFAS Headquarters received
           37 questions; the 5 central sites received 52 questions; and the additional function
           site received 3 questions. Responses to 4 of the 92 questions were entered at
           more than one site. In addition, DFAS complied with the requirement to have all
           stand-alone facilities and host installations, including leased facilities, answer
           JPAT 7 and COBRA data call questions. DFAS stand-alone facilities included
           DFAS Headquarters, two central sites, six field sites, and one site that performs
           additional DFAS functions.

           We visited DFAS locations where the responses to the BRAC questions were
           entered into the DCT and the supporting documentation was maintained (see
           Appendix E). We did not visit Pensacola Saufley Field, which sent copies of the
           documentation they received from the responding sites to DFAS Indianapolis to
           be reviewed by auditors. We evaluated the DFAS-assigned data call questions at
           each DFAS site visited. At the sites, we identified inadequately supported and
           incorrect responses. As a result of our visits, DFAS sites revised responses and
           provided supporting documentation to correct most of the issues. We concurred
           with the majority of the changes. We issued six site memorandums to summarize
           the results of the sites visits. However, we did not validate the DFAS
           Headquarters’ selection process. Moreover, we did not verify supporting
           documentation for responses to certain questions because DoD OIG determined
           that the responses to those questions requested supporting documentation such as
           Microsoft Outlook calendars that could not be verified.




13
     Questions 347, 350, 351, 353, 354, 360, 362, 376, and 393.

                                                     12
            Specifically for DFAS, those were HSA JCSG military value questions 1907 14
            and 1908. 15 Subsequent to our visit, the JPAT 7 group requested that activities
            update some of their responses based upon new guidance. We did not review the
            updated responses or their supporting documentation.

            Scenario Specific Data Call. As of March 18, 2005, DFAS Headquarters
            received from the HSA JCSG 1 scenario, which contained 109 scenario specific
            data call questions. Specifically, DFAS received HSA JCSG question numbers
            (6125 through 6233). DFAS then reviewed the data call questions and forwarded
            those specific questions to 28 sites: DFAS Headquarters, the 5 central sites,
            18 field sites, and 4 additional sites. However, DFAS assigned DFAS
            Headquarters and four DFAS central sites to be the data entry sites for all the
            28 locations. 16 Those five sites received responses to questions and
            documentation to support those responses, entered the responses to the questions
            into the DCT, and maintained the related supporting documentation, in
            accordance with the DFAS ICP. Specifically, DFAS assigned DFAS
            Headquarters to enter responses to 53 questions into the DCT, and the 4 DFAS
            central sites to enter responses to 56 questions.

            We visited DFAS locations where the responses to the BRAC questions were
            entered into the DCT and the supporting documentation was maintained (see
            Appendix F). We evaluated the assigned scenario specific data call questions at
            each DFAS site visited. At the sites, we identified inadequately supported and
            incorrect responses. As a result of our site visits, DFAS sites revised responses
            and provided supporting documentation to correct most of the issues. We verified
            and concurred with the majority of the changes. However, we did not validate the
            DFAS Headquarters’ selection process.

            HSA JCSG informed us that DFAS responses to 22 questions were no longer
            needed or would not be used for HSA JCSG analysis. 17 We initially determined
            that 7 of those 22 questions were not fully supported for DFAS. 18 As a result, we
            determined that no further action was required on behalf of DFAS for those seven
            questions.

            In addition to reviewing the scenario specific data call responses, we revalidated
            questions that were not supported during the capacity analysis and second data
            calls, as well as responses to questions not previously validated by DoD OIG




14
      The question asked for the number of meetings between an organization’s senior officials, including flag
     officers, and senior officials from another organization located in the Washington, D.C., area.
15
      The question asked for the number of meetings between an organization’s senior officials, including flag
     officers, and members of Congress or their staffs.
16
     DFAS Headquarters did not task DFAS Denver to enter scenario specific data call responses into the
     Data Collection Tool.
17
     Questions 6170, 6187, 6195, 6214 through 6227, and 6229 through 6233.
18
     Questions 6187, 6215, and 6217 through 6221.
                                                       13
    during the capacity analysis data call (see Appendix G). We issued seven site
    memorandums to summarize the results of the site visits during the audit
    revalidation.

    Data Integrity. The DoD OIG Data Mining Division reviewed the integrity of the
    data transferred from the DFAS DCT to the OSD Database. The 163,055 responses
    in the DFAS DCT were compared to the 112,279 responses in the OSD Database.
    We evaluated the discrepancies and found:

       •   54,024 responses were in the DFAS DCT but not in the OSD Database.
           Of those responses, 53,967 represented data collected by DFAS in its DCT
           that was neither requested nor received by OSD, and 57 responses were
           the result of timing differences between the two databases we compared.

       •   3,248 responses were in the OSD Database but not in the DFAS DCT. All
           of these discrepancies were the result of timing differences between the
           two databases we compared.

    We evaluated each of the discrepancies and determined there would be no
    material impact on the JCSG analysis.

    We performed this audit from January 5, 2004, through March 18, 2005, in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data
    contained in the Defense Program Budget Systems Database, the DFAS
    Indianapolis Facilities and Civilian and Military Personnel Database, the Systems
    Inventory Database, the Business of DFAS Database, and the Budget Estimate
    Submission System. We did not test the accuracy of the computer-processed data
    used to support answers to data call questions because of time constraints.
    Potential inaccuracies in the data could impact the results. However, the BRAC
    data were certified as accurate and complete to the best of the certifier’s
    knowledge and belief. We did not review the DCT used. The Army Audit
    Agency evaluated the Online DCT and found that the DCT allowed responders to
    skip questions by using the space bar and also allowed them to enter numeric data
    for questions that required text answers.
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Management of Federal Real Property and DoD Support
    Infrastructure Management high-risk areas.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.


                                       14
Scope of the Review of the Management Control Program. We evaluated the
DFAS management controls for preparing, submitting, documenting, and
safeguarding information associated with the BRAC 2005 data calls, as directed
by the DFAS ICP. Specifically, we reviewed procedures that DFAS used to
develop, submit, and document its data call responses. In addition, we reviewed
the controls implemented to safeguard the premature disclosure of DFAS BRAC
data before responses were forwarded to the OSD BRAC Office. We did not
review the DFAS management control program because its provisions were not
deemed applicable to the one-time data collection process.

Adequacy of Management Controls. We identified management control
weaknesses for DFAS as defined by DoD Instruction 5010.40 that could be
material. DFAS management controls for preparing, submitting, documenting,
and safeguarding information associated with the BRAC 2005 data calls were not
adequate to ensure BRAC data were secured in lock file cabinets and BRAC
rooms, that individuals involved in the BRAC process had signed NDAs before
gaining access to BRAC data, that review of BRAC data was conducted prior to
pre-certification of the data, that BRAC documentation was always protected with
appropriate warnings, that written authorization was requested before making
changes to certified data, and that BRAC documentation was kept separated from
other non-BRAC material. We presented the management control weaknesses
highlighted to DFAS managers throughout the data collection process. Since this
process is now complete, no additional recommendations are necessary.




                                   15
Appendix B. Prior Audit Coverage

During the last 5 years, the DoD Inspector General issued 23 site memorandums
discussing the DFAS BRAC 2005 data call submissions and internal control processes
and the Army Audit Agency issued a report related to the automated data collection tool.


DoD Inspector General
       Site Memorandums

       DoD IG Memorandum, “Audit Revalidation of the Capacity Analysis and Second
       Data Call Submission from Defense Finance and Accounting Service Arlington to
       Defense Finance and Accounting Service Headquarters for Base Realignment and
       Closure 2005,” April 4, 2005

       DoD IG Memorandum, “Audit Revalidation of the Capacity Analysis Data Call
       Submission from Defense Finance and Accounting Service Kansas City to
       Defense Finance and Accounting Service Headquarters for Base Realignment and
       Closure 2005,” March 28, 2005

       DoD IG Memorandum, “Audit Revalidation of the Capacity Analysis Data Call
       Submission from Defense Finance and Accounting Service Indianapolis to
       Defense Finance and Accounting Service Headquarters for Base Realignment and
       Closure 2005,” March 10, 2005

       DoD IG Memorandum, “Audit Revalidation of the Capacity Analysis Data Call
       Submission from Defense Finance and Accounting Service (DFAS)- Columbus to
       Defense Finance and Accounting Service- Headquarters for Base Realignment and
       Closure 2005,” March 8, 2005

       DoD IG Memorandum, “Audit Revalidation of the Capacity Analysis Data Call
       Submission from Defense Finance and Accounting Service (DFAS) Denver to
       DFAS Headquarters for Base Realignment and Closure 2005,” March 8, 2005

       DoD IG Memorandum, “Audit Revalidation of the Capacity Analysis Data Call
       Submission from the Defense Finance and Accounting Service (DFAS) Cleveland
       to DFAS Headquarters for Base Realignment and Closure 2005,” March 8, 2005

       DoD IG Memorandum, “Audit Revalidation of the Capacity Analysis Data Call
       Submission From the Defense Finance and Accounting Service (DFAS)
       Pensacola to DFAS Headquarters for Base Realignment and Closure 2005,”
       February 23, 2005




                                           16
DoD IG Memorandum, “Audit of the Second Data Call Submission from
Defense Finance and Accounting Service Indianapolis to Defense Finance and
Accounting Service Headquarters for Base Realignment and Closure 2005,”
December 20, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Finance and Accounting Service Arlington to the Defense Finance and
Accounting Service Headquarters for Base Realignment and Closure 2005,”
December 16, 2004

DoD IG Memorandum, “Audit of the Second Data Call Submission from the
Defense Finance and Accounting Service Columbus to the Defense Finance and
Accounting Service Headquarters for Base Realignment and Closure 2005,”
November 18, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from
Defense Finance and Accounting Service Kansas City to Defense Finance
and Accounting Service Headquarters for Base Realignment and Closure
2005,” November 17, 2004

DoD IG Memorandum, “Audit of the Second Data Call Submission from Defense
Finance and Accounting Service Denver to Defense Finance and Accounting
Service Headquarters for Base Realignment and Closure 2005,” October 25, 2004

DoD IG Memorandum, “Audit of the Second Data Call Submission from the
Defense Finance and Accounting Service Cleveland to the Defense Finance and
Accounting Service Headquarters for Base Realignment and Closure 2005,”
October 7, 2004

DoD IG Memorandum, “Audit of the Corporate Responder Capacity Analysis
Data Call Submission from Defense Finance and Accounting Service Indianapolis
to Defense Finance and Accounting Service Headquarters for Base Realignment
and Closure 2005,” August 27, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Finance and Accounting Service Arlington to the Defense
Finance and Accounting Service Headquarters for Base Realignment and Closure
2005,” August 12, 2004

DoD IG Memorandum, “Audit of the Capacity Analysis Data Call Submission
from Defense Finance and Accounting Service – Columbus to Defense Finance
and Accounting Service Headquarters for Base Realignment and Closure 2005,”
July 28, 2004

DoD IG Memorandum, “Audit of the Capacity Analysis Data Call Submission
from Defense Finance and Accounting Service (DFAS) Kansas City to DFAS
Headquarters for Base Realignment and Closure 2005,” July 19, 2004




                                  17
    DoD IG Memorandum, “Audit on the Corporate Resources Capacity Analysis
    Data Call Submission from Defense Finance and Accounting Service Indianapolis
    to Defense Finance and Accounting Service Headquarters for Base Realignment
    and Closure 2005,” July 13, 2004

    DoD IG Memorandum, “Audit of the Capacity Analysis Data Call Submission
    from the Defense Finance and Accounting Service Cleveland to DFAS
    Headquarters for Base Realignment and Closure 2005,” July 12, 2004

    DoD IG Memorandum, “Audit on the Technology Service Organization Capacity
    Analysis Data Call Submission from Defense Finance and Accounting Service
    Indianapolis to the Defense Finance and Accounting Service Headquarters for
    Base Realignment and Closure 2005,” June 30, 2004

    DoD IG Memorandum, “Audit on the Accounting Services Capacity Analysis
    Data Call Submission from Defense Finance and Accounting Service,
    Indianapolis to Defense Finance and Accounting Service Headquarters for Base
    Realignment and Closure 2005,” June 30, 2004

    DoD IG Memorandum, “Audit of the Capacity Analysis Data Call Submission
    from Defense Finance and Accounting Service Denver to Defense Finance and
    Accounting Service Headquarters for Base Realignment and Closure 2005,”
    June 30, 2004

    DoD IG Memorandum “Audit on the Capacity Analysis Data Call Submission
    from Defense Finance and Accounting Service Pensacola (Saufley Field) to
    Defense Finance and Accounting Service Headquarters for Base Realignment and
    Closure 2005,” June 3, 2004


Army Audit Agency
    Army Audit Agency Report A-2004-0184-IMT, “Review of Online Data
    Collection Tool: Process Controls,” February 20, 2004




                                      18
Appendix C. BRAC 2005 Data Call Questions Not
            Fully Supported

Capacity Analysis Data Call. For the capacity analysis data call, DFAS provided data
that were generally supported. However, 3 of 164 questions remain not fully supported.

          •   Question 359. DFAS Kansas City did not provide adequate support for
              responses from 5 of 46 sites. The question required the DFAS sites to
              provide the amount of usable square feet assigned to perform the military
              pay function. DFAS Kansas City did not provide a consistent
              methodology for the computation of average square footage associated
              with the reallocation of personnel. In addition, the response entered into
              the DCT for one site did not agree with the documentation provided to
              support the response.
          •   Question 361. DFAS Kansas City did not provide adequate support for
              responses from two of three sites. The question required the DFAS sites
              to provide the amount of usable square feet assigned to perform the
              military retired and annuitant pay function. DFAS Kansas City did not
              provide a consistent methodology for the computation of average square
              footage associated with the reallocation of personnel.

          •   Question 370. DFAS Kansas City did not provide adequate support for
              responses from 1 of 46 sites. The question required the DFAS sites to
              provide the building number, building name, Manning Document
              Identifier/Unit Identification Code, Department of Defense Activity Code,
              name of organization, street address, town and state, zip code, number of
              safes, vaults, and classified financial systems, and the total usable square
              feet used by each to perform the military pay function. DFAS Kansas
              City provided documentation that did not agree with the response entered
              into the DCT for one site.


Second Data Call. For the second data call, DFAS provided data that were generally
supported. However, 5 of 92 questions remain not fully supported.

          • Question 1905. DFAS Indianapolis did not provide adequate support for
             responses from 22 of 29 sites. The question required the DFAS sites to
             provide information to determine which activities perform each of the
             14 common support functions. DFAS Indianapolis provided summary
             spreadsheets by e-mail without source documentation to support the
             answers provided. Auditors did not have access to the source personnel
             listings, workload records and logs, facility square footage, or other
             resource records and calculations that were reportedly the basis for the
             responses submitted.

                                           19
          •   Question 1912. DFAS Indianapolis did not provide adequate support for
              responses from 7 of 15 sites. The question required the DFAS sites to
              provide information about each building’s total square feet either leased to
              or occupied by DoD entities, the building’s distance within a controlled
              perimeter or parking/roadway, the existence of underground parking, or
              whether the parking had controlled access. DFAS Indianapolis obtained
              responses from the field sites via an e-mail data call. DFAS Indianapolis
              did not provide adequate documentation to support responses provided by
              seven sites.

          •   Question 1913. DFAS Indianapolis did not provide adequate support for
              responses from 22 of 29 sites. The question required the DFAS sites to
              determine, for each of the 14 common support functions, whether the
              activity’s current location was vital to the performance of the mission.
              DFAS Indianapolis did not provide adequate documentation to support
              responses provided by the sites in an e-mail summary spreadsheet. In
              addition, supporting documentation provided by one of the sites
              contradicted the response entered into the DCT.

          •   Question 1916. DFAS Indianapolis only partially supported the responses
              for 8 of 23 sites. The question required DFAS sites to provide the number
              of supervisory and non-supervisory personnel (plus on-board contractors)
              and the dedicated workspace occupied by supervisory and non-
              supervisory personnel performing each common support function. DFAS
              Indianapolis did not include information to support the on-board
              contractor personnel. In addition, input and data calculation errors, which
              needed to be corrected in the DCT, were identified for 7 of 23 sites.

          •   Question 1917. DFAS Indianapolis only partially supported responses for
              23 of 85 sites. The question required DFAS sites to provide the number of
              authorized military officers, military enlisted, DoD civilians, and on-board
              contractors performing the facilities’ management function. In addition,
              the question required the total number of usable square feet in leased
              facilities and the total number of gross square feet of owned space used to
              perform the facilities’ management function. DFAS Indianapolis did not
              provide adequate documentation to support the counts of authorized
              military, civilian, and on-board contractor personnel submitted by those
              sites in an e-mail summary spreadsheet.
Scenario Specific Data Call. For the scenario specific data call, DFAS provided data
that were generally supported. However, 13 of 109 questions remain not fully supported.

          •   Question 6125. DFAS Cleveland did not provide adequate support for
              responses from one of five sites. The question required the DFAS sites to
              provide a breakout of military officer, military enlisted, and civilian
              personnel by product line/function and location for FY 2005. The
              FY 2005 Budget Estimate Submission supported responses to this
              question. However, DFAS Cleveland did not provide adequate allocation
              methodology that described the breakout for each product line, function,
              and location to support responses provided by one site.


                                           20
•   Question 6126. DFAS Cleveland did not provide adequate support for
    responses from two of five sites. The question required the DFAS sites to
    provide a breakout of military officer, military enlisted, and civilian
    personnel by product line/function and location for FY 2006. Responses
    to the question were supported by the FY 2006 through FY 2011 Program
    Objective Memorandum Submissions. However, DFAS Cleveland did not
    provide adequate allocation methodology that described the breakout for
    each product line, function, and location to support responses provided by
    two sites.

•   Questions 6127 through 6131. DFAS Cleveland did not provide adequate
    support for responses from one of five sites. Those questions required
    DFAS sites to provide a breakout of military officer, military enlisted, and
    civilian personnel by product line/function and location for FYs 2007
    through 2011. Responses to those questions were supported by the
    FY 2006 through FY 2011 Program Objective Memorandum Submissions.
    However, DFAS Cleveland did not provide adequate allocation
    methodology that described the breakout for each product line, function,
    and location to support responses provided by one site.

•   Questions 6199 through 6201. DFAS Indianapolis did not provide support
    for responses from 28 of 28 sites. Those questions required DFAS sites to
    provide the tonnage of records to be moved, by fiscal year, from field sites
    to the three gaining sites. The initial methodology provided by DFAS
    Indianapolis showed movement of records to the gaining sites based on
    the personnel movement contained in the DFAS Planning Matrix, rather
    than by the function/product line relocation. However, upon further
    discussions, DFAS agreed to change its methodology to reflect movement
    of records based on the planned movement by product line. DFAS then
    changed its initial answers to reflect the movement of records based on the
    function relocation. While reviewing responses entered into the DCT, we
    noticed several input errors, which we brought to DFAS attention.
    However, as of the date of completion of our audit fieldwork, we were not
    able to verify whether those corrections were entered into the DCT.

•   Questions 6205 through 6207. DFAS Indianapolis did not provide support
    for responses from 28 of 28 sites. Those questions required the DFAS
    sites to provide the tonnage of furniture to be moved by fiscal year to the
    three gaining sites. DFAS Indianapolis used an arbitrary methodology
    that did not ensure that sufficient furniture was on hand at the three
    gaining sites throughout the relocation process.




                                 21
Appendix D. Capacity Analysis Data Call
  Table D-1. Capacity Analysis Data Call Sites Visited and Questions Reviewed

  DFAS Sites                                Question Number
                                    Answered                      Not Applicable
DFAS             24, 25, 27, 319, 325, 347, 363, 365, 366, 371, 246, 305, 314, 316,
Headquarters,    383, 386, 387, 389, 390, 392-395, 397, 399,    318, 321, 322, 324,
Arlington,       401-410, 412, 413, 415, 419, 420, 423, 424,    327-329, 357, 381,
Virginia         429, 430, 432, 433, 435, 437-443, 447, 457,    384, 391, 434, 436,
                 462, 466, 582, and 627                         444, 460, 478, 479,
                                                                and 481
DFAS            24, 25, 27, 311, 317-319, 325, 347, 350, 351,   246, 305, 314, 316,
Cleveland, Ohio 353, 355, 363, 365, 369-371, 375-377, 380, 383, 321, 322, 324, 328,
(Central Site)  386, 389, 391, 393, 395, 401-404, 406-410, 412, 329, 381, 384, 460,
                413, 415, 419, 420, 423, 424, 430, 434, 435,    and 627
                437-442, 456, 457, 479, and 582
DFAS            24, 25, 27, 301, 318, 319, 325, 347, 348, 350,  246, 305, 314, 316,
Columbus,       354-356, 358, 363-365, 369, 371, 373, 376, 378, 321, 322, 324, 328,
Ohio            382, 383, 385-389, 391, 393, 395, 401-410, 413, 329, 349, 357, 366-
(Central Site)  415, 419, 420, 423, 424, 430, 433-435, 437-440, 368, 374, 381, 384,
                442, 456, 457, 479, and 582                     and 460
DFAS Denver,    24, 25, 27, 216, 220, 251, 257, 276, 277, 301,  215, 219, 246, 256,
Colorado        305, 317, 319, 325, 347, 348, 350-353, 358,     314, 316, 318, 321,
(Central Site)  363, 365-367, 369-373, 376, 379, 380, 383, 386- 322, 324, 328, 329,
                389, 391, 393, 395, 401-410, 412, 415, 419,     381, 384, and 460
                420, 423, 424, 430, 433-435, 437-441, 456, 457,
                479, 582, and 627
DFAS            24, 25, 27, 311, 314, 316-319, 321, 324, 325,   246, 305, 322, 348,
Indianapolis,   328, 329, 347, 350, 351, 354, 355, 357, 358,    349, 367, 368, 373,
Indiana         363, 365, 366, 369-371, 374, 376-378, 382, 383, 381, 384, 388, and
(Central Site)  386, 387, 389, 391, 393, 395, 401-410, 412,     460
                413, 415, 419, 420, 423, 424, 430, 433-435,
                437-442, 447, 448, 456, 457, 479, 482, 582, and
                627
DFAS Kansas     24, 25, 27, 246, 311, 317, 319, 325, 347, 350,  305, 314, 316, 318,
City, Missouri  351, 354, 355, 363, 365, 370, 371, 376, 378,    321, 322, 324, 328,
(Central Site)  382, 383, 386, 389, 391, 393, 395, 401-410,     329, 381, 384, and
                412, 415, 419, 420, 423, 424, 430, 433-435,     460
                437-441, 456, 457, 479, and 582
Pensacola       24, 25, 27, 246, 301, 316, 317, 319, 401, 402,  305, 314, 318, 321,
Saufley Field,  406, 419, 434, 457, and 582                     322, 324, 328, and
Florida                                                         329
(Technology
Service
Organization
(TSO)



                                         22
 Table D-2. Capacity Analysis Data Call Questions Reviewed and Sites Not Visited

    DFAS Sites                                Question Number
                                        Answered                      Not Applicable
DFAS Charleston,      24, 25, 27, 256, 276, 277, 311, 317-319,       215, 216, 219,
South Carolina        347, 348, 351, 352, 354, 355, 363, 365, 366,   220, 246, 251,
(Field Site)          371-373, 379, 381, 383, 386, 387, 393, 401-    257, 305, 328,
                      403, 407, 415, 420, 430, 435, 456, 479, 582,   329, 350, 358,
                      and 627                                        369, 376, 384,
                                                                     388, and 457
DFAS Dayton,          24, 25, 27, 276, 277, 305, 311, 319, 347,      215, 216, 219,
Ohio                  348, 350, 355, 358, 363, 365-367, 369, 371,    220, 246, 251,
(Field Site)          373, 376, 381, 383, 386-388, 393, 401-403,     256, 257, 318,
                      407, 408, 415, 420, 430, 435, 456, 457, 582,   328, 329, and 384
                      and 627
DFAS Lawton/Fort      24, 25, 27, 301, 305, 311, 319, 347, 351,    246, 318, 328,
Sill,                 354, 355, 363, 365, 366, 370, 371, 377, 378, 329, 348-350,
Oklahoma              381-383, 386, 387, 393, 401-403, 407, 408,   357, 358, 367-
(Field Site)          415, 420, 430, 435, and 582                  369, 373, 374,
                                                                   376, 384, 388,
                                                                   and 457
DFAS Lexington,       24, 25, 27, 311, 319, 347, 354, 355, 363,    246, 305, 318,
Kentucky              365, 366, 371, 381, 383, 386, 387, 393, 401- 328, 329, 348-
(Field Site)          403, 415, 430, and 582                       350, 357, 358,
                                                                   367-369, 373,
                                                                   374, 376, 384,
                                                                   388, and 457
DFAS Limestone,       24, 25, 27, 246, 256, 276, 277, 301, 317,    215, 216, 219,
Maine                 319, 347, 348, 350, 355, 358, 363, 365-367, 220, 251, 257,
(Field Site)          369, 371, 373, 376, 381, 383, 386-388, 393, 305, 318, 328,
                      401-403, 407, 408, 415, 420, 430, 435, 456, 329, 457, and 627
                      and 582
DFAS Norfolk Naval    24, 25, 27, 301, 317, 319, 347, 350, 354,    246, 305, 318,
Station,              355, 363, 365, 369, 371, 376, 381, 383, 386, 328, 329, 384,
Virginia              393, 401-403, 407, 408, 415, 420, 430, 435, and 457
(Field Site)          and 582
DFAS Oakland,         24, 25, 27, 311, 319, 347, 355, 365, 366,    246, 305, 318,
California            371, 386, 393, 401-403, 407, 415, 420, 430, 328, 329, and 457
(Field Site)          435, 582, and 627
DFAS Omaha,           24, 25, 27, 301, 318, 319, 347, 348, 350,    246, 305, 328,
Nebraska              355, 358, 363, 365-367, 369, 371, 373, 376, 329, and 384
(Field Site)          381, 383, 386-388, 393, 401-403, 407, 408,
                      415, 420, 430, 435, 457, and 582




                                         23
          Table D-2. Capacity Analysis Data Call Questions Reviewed and
                                  Sites Not Visited (cont’d)

  DFAS Sites                                  Question Number
                                   Answered                  Not Applicable
DFAS Orlando,      24, 25, 27, 215, 276, 277, 311, 317, 319, 216, 219, 220, 246, 251,
Florida            347, 348, 354, 355, 363, 365-367, 371,    256, 257, 305, 314, 316,
(Field Site)       373, 378, 381-383, 386-388, 393, 401-     318, 321, 322, 324, 328,
                   403, 406-408, 415, 419, 420, 430, 435,    329, 349, 350, 357, 358,
                   456, 457, 582, and 627                    368, 369, 374, 376, 384,
                                                             and 434



DFAS Pacific,      24, 25, 27, 301, 317, 319, 347, 348, 350,   246, 305, 318, 328, 329,
Hawaii             354, 355, 363, 365-367, 369, 371, 373,      384, and 457
(Field Site)       376, 381, 383, 386, 388, 393, 401-403,
                   407, 408, 415, 420, 430, 435, and 582
DFAS               24, 25, 27, 301, 314, 316-319, 347, 352,    246, 305, 321, 322, 324,
Pensacola          354, 355, 363, 365, 366, 371, 372, 379,     328, 329, 384, and 457
Naval Air          381, 383, 386, 393, 401-403, 406-408,
Station, Florida   415, 419, 420, 430, 434, 435, and 582
(Field Site)
DFAS Rock          24, 25, 27, 301, 319, 347, 354, 355, 363,   246, 305, 318, 328, 329,
Island, Illinois   365, 366, 371, 378, 381-383, 386, 387,      348-350, 357, 358, 367-
(Field Site)       393, 401-403, 407, 408, 415, 420, 430,      369, 373, 374, 376, 384,
                   435, and 582                                388, and 457
DFAS Rome,         24, 25, 27, 256, 276, 277, 301, 305, 319,   215, 216, 219, 220, 246,
New York           347, 354, 355, 363, 365, 366, 371, 378,     251, 257, 318, 328, 329,
(Field Site)       381-383, 386, 387, 393, 401-403, 407,       348-350, 357, 358, 367-
                   408, 415, 420, 430, 435, 456, 582, and      369, 373, 374, 376, 384,
                   627                                         388, and 457

DFAS San           24, 25, 27, 305, 311, 319, 347, 348, 350,   246, 318, 328, 329, and 384
Antonio, Texas     354, 355, 358, 363, 365-367, 369, 371,
(Field Site)       373, 376, 378, 381-383, 386-388, 393,
                   401-403, 407, 415, 420, 430, 435, 457,
                   and 582
DFAS San           24, 25, 27, 215, 216, 219, 256, 276, 277,   220, 246, 251, 257, 318,
Bernardino,        301, 305, 311, 317, 319, 347, 348, 350,     328, and 329
California         355, 358, 365-367, 369, 371, 373, 376,
(Field Site)       381, 383, 386-389, 393, 401-403, 407,
                   409, 410, 415, 420, 423, 424, 430, 435,
                   437-439, 456, 457, 582, and 627
DFAS San           24, 25, 27, 305, 311, 317, 319, 347, 354,   246, 318, 328, 329, and 384
Diego,             355, 363, 365, 366, 371, 381, 383, 386,
California         393, 401-403, 407, 415, 420, 430, 435,
(Field Site)       457, 582, and 627

                                            24
          Table D-2. Capacity Analysis Data Call Questions Reviewed and
                                  Sites Not Visited (cont’d)

     DFAS Sites                                  Question Numbers
                                           Answered                      Not Applicable
DFAS Seaside,            24, 25, 27, 301, 319, 347, 351, 354, 355,      246, 305, 318,
California               363, 365, 366, 371, 377, 381, 383, 386, 387,   328, 329, 348-
(Field Site)             393, 401-404, 407, 415, 420, 430, 435, 582,    350, 357, 358,
                         and 627                                        367-369, 373,
                                                                        374, 376, 384,
                                                                        388, and 457
DFAS St. Louis,          24, 25, 27, 311, 317, 319, 347, 348, 354,      246, 305, 318,
Missouri                 355, 363, 365-367, 371, 373, 378, 381-383,     328, 329, 349,
(Field Site)             386-388, 393, 401-403, 407, 409, 415, 420,     350, 357, 358,
                         430, 435, 437, 457, 582, and 627               368, 369, 374,
                                                                        376, and 384
Aberdeen Proving         351, 354, 370, 377, 463, and 465               None
Ground, Maryland
(DMPO)
Fort Belvoir, Virginia   351, 354, 370, 377, 463, and 465               None
(DMPO)
Fort Benning,            301, 351, 354, 370, and 377                    None
Georgia (DMPO)
Fort Bliss, Texas        301, 351, 354, 370, and 377                    None
(DMPO)
Fort Bragg, North        301, 351, 354, 370, 377, 378, and 382          None
Carolina (DMPO)
Fort Buchanan,           301, 351, 354, 370, and 377                    None
Puerto Rico (DMPO)
Fort Campbell,           301, 351, 354, 370, and 377                    None
Kentucky (DMPO)
Fort Carson,             301, 351, 354, 370, and 377                    None
Colorado (DMPO)
Fort Drum, New           301, 351, 354, 370, and 377                    None
York (DMPO)
Fort Eustis, Virginia    301, 351, 354, 370, and 377                    None
(DMPO)
Fort Gordon, Georgia     301, 351, 354, 370, and 377                    None
(DMPO)
Fort Hood, Texas         301, 351, 354, 370, 377, 378, and 382          None
(DMPO)
Fort Huachuca,           301, 351, 354, 370, and 377                    None
Arizona (DMPO)
Fort Irwin, California   301, 351, 354, 370, and 377                    None
(DMPO)
Fort Jackson, South      301, 351, 354, 370, and 377                    None
Carolina (DMPO)
Fort Knox, Kentucky      301, 351, 354, 370, and 377                    None
(DMPO)
                                            25
         Table D-2. Capacity Analysis Data Call Questions Reviewed and
                                 Sites Not Visited (cont’d)

    DFAS Sites                                 Question Number
                                         Answered                 Not Applicable
Fort Leavenworth,       301, 351, 354, 370, and 377              None
Kansas (DMPO)
Fort Lee, Virginia      301, 351, 354, 370, and 377              None
(DMPO)
Fort Leonard Wood,      301, 351, 354, 370, and 377              None
Missouri (DMPO)
Fort Lewis,             301, 351, 354, 370, 377, and 382         None
Washington (DMPO)
Fort McCoy,             301, 351, 354, 370, and 377              None
Wisconsin (DMPO)
Fort McPherson,         301, 351, 354, 370, and 377              None
Georgia (DMPO)
Fort Meade,             351, 354, 370, 377, 463, and 465         None
Maryland (DMPO)
Fort Monroe,            301, 351, 370, and 377                   None
Virginia (DMPO)
Fort Myer, Virginia     351, 370, 377, 463, and 465              None
(DMPO)
Fort Polk, Louisiana    301, 351, 354, 370, and 377              None
(DMPO)
Fort Richardson,        301, 351, 354, 370, 377, 378, and 382    None
Alaska (DMPO)
Fort Riley, Kansas      301, 351, 354, 370, and 377              None
(DMPO)
Fort Rucker, Alabama    301, 351, 354, 370, and 377              None
(DMPO)
Fort Sam Houston,       301, 351, 354, 370, and 377              None
Texas (DMPO)
Fort Shafter, Hawaii    301, 351, 354, 370, and 377              None
(DMPO)
Fort Stewart, Georgia   301, 351, 354, 370, 377, 378, and 382    None
(DMPO)
Fort Story, Virginia    301, 351, 370, and 377                   None
(DMPO)
McDill AFB, Florida     351, 370, and 377                        None
(DMPO)
Pentagon, Virginia      351, 370, 377, 458, and 471              None
(DMPO)
Presidio Monterey,      301, 351, 354, 370, and 377              None
California (DMPO)
Redstone Arsenal,       301, 351, 354, 370, and 377              None
Alabama (DMPO)
Schofield Barracks,     301, 351, 354, 370, and 377              None
Hawaii (DMPO)

                                            26
          Table D-2. Capacity Analysis Data Call Questions Reviewed and
                                  Sites Not Visited (cont’d)

     DFAS Sites                                 Question Number
                                          Answered                    Not Applicable
Walter Reed Army         351, 370, 463, and 485                      None
Medical Center,
Maryland (DMPO)
West Point, New          301, 351, 354, 370, and 377                 None
York (DMPO)
Hickam Air Force         301, 371, and 387                           None
Base (AFB), Hawaii
(MSA)
Hill AFB, Utah           301, 371, and 387                           None
(MSA)
Lackland AFB, Texas      301, 371, and 387                           None
(MSA)
Langley, Virginia        301, 371, and 387                           None
(MSA)
Maxwell AFB,             301, 371, and 387                           None
Alabama (MSA)
Peterson Field           301, 371, and 387                           None
Military Reservation,
Colorado (MSA)
Randolph AFB,            301, 371, and 387                           None
Texas (MSA)
Scott AFB, Illinois      301, 311, 371, and 387                      None
(MSA)
Tinker AFB,              301, 371, and 387                           None
Oklahoma (MSA)
Tyndall AFB, Florida     None                                        None
(MSA)
Warner-Robbins           301, 371, and 387                           None
AFB, Georgia (MSA)
Wright-Patterson         301, 371, and 387                           None
AFB, Ohio (MSA)
Carlisle Barracks,       351, 370, 377, 463, and 465                 None
Pennsylvania
(Military and Civilian
Pay)
Hunter Army              None                                        None
Airfield, Georgia
(Military and Civilian
Pay)
Cleveland Bratenahl,     24, 25, 27, 301, 314, 317, 319, 320, 322,   246, 305, 316,
Ohio (TSO)               406, 419, 457, and 582                      318, 321, 324,
                                                                     328, 329, and 434


                                             27
         Table D-2. Capacity Analysis Data Call Questions Reviewed and
                                 Sites Not Visited (cont’d)

    DFAS Sites                            Question Number
                                     Answered                       Not Applicable
Mechanicsburg,       301, 406, and 419                             314, 316, 321,
Pennsylvania (TSO)                                                 322, 324, and 434
Patuxent River,      24, 25, 27, 246, 317, 319, 401, 402, 406,     305, 314, 316,
Maryland             419, 434, 457, 462, 466, 482, 582, and 627    318, 321, 322,
(TSO)                                                              324, 328, and 329
Quantico, Virginia   371, 463, and 465                             None
(Accounting)
Red River Army       24, 25, 27, 301, 319, 349, 350, 357, 358,     314, 316, 318,
Depot,               365, 368, 369, 374, 376, 386, 393, 406, and   321, 322, 324,
Texas                419                                           328, 329, 347,
(Accounting                                                        348, 366, 367,
Non-appropriated                                                   371, 373, 387,
Funds)                                                             388, and 434
Southbridge,         24, 25, 27, 246, 311, 317, 319, 401-403,      305, 318, 328,
Massachusetts        408, 415, 430, 457, and 582                   and 329
(Corporate
Resources)




                                         28
Appendix E. Second Data Call
        Table E-1. Second Data Call Sites Visited and Questions Reviewed


    DFAS Site                              Question Number
                                  Answered                    Not Applicable
DFAS Headquarters 1501, 1901-1905, 1909-1913, 1915-      1504, 1505, 1900, 1914,
Arlington, Virginia 1919, 1926, 1928-1946, 1975, 4080,   1921, 1961-1965, 1976,
(Headquarters and   4081, and 4099-4103                  1977, 4000, and 4072-
Stand-alone Site)                                        4074

DFAS Cleveland,      1400-1406, 1408-1417, 1420, 1421,     1504, 1505, 1900, 1906,
Ohio                 1501, 1901-1905, 1909-1913, 1915-     1914, 1928, 1942, 1948,
(Central and         1919, 1921-1924, 1926, 1929, 1931-    1961-1965, 1976, 1977,
Stand-alone Site)    1933, 1935-1941, 1945, 1946, 1975,    4000, and 4072-4074
                     4080, and 4081
DFAS Columbus,       1901-1906, 1909-1911, 1913, 1915-     1400-1417, 1420, 1421,
Ohio                 1919, 1921, 1925-1927, 1929, 1931-    1504, 1505, 1900, 1914,
(Central Site)       1939, 1941-1943, 1945, 1946, 1949,    1920, 1928, 1940, 1947,
                     4080, and 4081                        1961-1965, 1975-1977,
                                                           4000, and 4072-4074
DFAS Denver,         1901-1906, 1909-1911, 1913, 1915-     1400-1417, 1420, 1421,
Colorado             1919, 1921-1924, 1926, 1929, 1931-    1501, 1504, 1505, 1900,
(Central Site)       1941, 1945, 1946, 1975, 4080, and     1914, 1928, 1942, 1948,
                     4081                                  1961-1965, 1976, 1977,
                                                           4000, and 4072- 4074
DFAS Indianapolis,   1400-1406, 1408-1417, 1420, 1421,     1504, 1505, 1906, 1914,
Indiana              1501, 1900-1905, 1909-1913, 1915-     1928, 1942, 1961-1965,
(Central and         1922, 1925, 1926, 1929, 1931-1941,    1976, 1977, 4000, and
Stand-alone Site)    1945, 1946, 1948, 1949, 1975, 4080,   4072-4074
                     and 4081
DFAS Kansas City,    1501, 1901, 1903-1905, 1909-1913,     1400-1417, 1420, 1421,
Missouri             1915-1919, 1921-1926, 1929, 1931-     1504, 1505, 1900, 1902,
(Central Site)       1940, 1944-1946, 1949, 1975, 4080,    1914, 1928, 1942, 1947,
                     and 4081                              1948, 1961-1965, 1976,
                                                           1977, 4000, and 4072-
                                                           4074




                                        29
      Table E-2. Second Data Call Questions Reviewed and Sites Not Visited

      DFAS Site                                Question Number
                                    Answered                    Not Applicable
DFAS Charleston,         1501, 1901-1906, 1910, 1911,     1400-1417, 1420, 1421,
South Carolina           1913, 1915-1919, 1923, 1925,     1504, 1505, 1912, 1914,
(Field Site)             1926, 1932, 1936, 1945, 1946,    1921, 1961, 1964, 1965,
                         1949, 1975, 4080, and 4081       1976, 1977, 4000, and
                                                          4072-4074
DFAS Dayton, Ohio        1501, 1901-1906, 1910, 1911,     1400-1417, 1420, 1421,
(Field Site)             1913, 1915-1919, 1921, 1926,     1504, 1505, 1900, 1912,
                         1932, 1936, 1937, 1945, 1946,    1914, 1961, 1964, 1965,
                         1975, 4080, and 4081             1976, 1977, 4000, and
                                                          4072-4074
DFAS Lawton/Fort         1901-1905, 1910, 1911, 1913,     1400-1417, 1420, 1421,
Sill, Oklahoma           1915-1919, 1922, 1925, 1926,     1504, 1505, 1900, 1906,
(Field Site)             1932, 1936, 1937, 1945, 1946,    1914, 1920, 1921, 1961,
                         1948, 1949, 4080, and 4081       1964, 1965, 1975-1977,
                                                          4000, and 4072-4074
DFAS Lexington,          1400-1406, 1408-1417, 1420,
Kentucky                 1421, 1501, 1901-1905, 1910,     1504, 1505, 1906, 1914,
(Field and Stand-alone   1911, 1913, 1915, 1917-1919,     1920, 1921, 1961, 1964,
Site)                    1925, 1926, 1932, 1945, 1946,    1965, 1976, 1977, 4000,
                         1949, 1975, 4080, and 4081       and 4072- 4074
DFAS Limestone,          1400-1406, 1408-1417, 1420,      1504, 1505, 1900, 1912,
Maine                    1421, 1501, 1901-1906, 1910,     1914, 1961, 1964, 1965,
(Field and Stand-alone   1911, 1913, 1915-1919, 1921,     1976, 1977, 4000, and
Site)                    1926, 1932, 1936, 1937, 1945,    4072-4074
                         1946, 1975, 4080, and 4081
DFAS Norfolk Naval       1901-1905, 1910, 1911, 1913,     1400-1417, 1420, 1421,
Station, Virginia        1915-1919, 1921, 1925, 1926,     1504, 1505, 1900, 1906,
(Field Site)             1932, 1936, 1937, 1945, 1946,    1914, 1920, 1961, 1964,
                         1949, 1975, 4080, and 4081       1965, 1976, 1977, 4000,
                                                          and 4072-4074
DFAS Oakland,            1400-1406, 1408-1417, 1420,      1504, 1505, 1903, 1906,
California               1421, 1501, 1901, 1902, 1904,    1914, 1921, 1961, 1964,
(Field and Stand-alone   1905, 1910-1913, 1915-1919,      1965, 1976, 1977, 4000,
Site)                    1926, 1932, 1936, 1945, 1946,    and 4072-4074
                         1975, 4080, and 4081
DFAS Omaha,              1901-1906, 1910, 1911, 1913,     1400-1417, 1420, 1421,
Nebraska                 1915-1919, 1921, 1926, 1932,     1504, 1505, 1900, 1914,
(Field Site)             1936, 1937, 1945, 1946, 4080,    1961, 1964, 1965, 1975-
                         and 4081                         1977, 4000, and 4072- 4074
DFAS Orlando, Florida    1400-1406, 1408-1417, 1420,      1504, 1505, 1900, 1912,
(Field and Stand-alone   1421, 1501, 1901-1906, 1910,     1914, 1920, 1921, 1948,
Site)                    1911, 1913, 1915-1919, 1922,     1961-1965, 1976, 1977,
                         1925, 1926, 1932, 1935, 1936,    4000, and 4072-4074
                         1937, 1945, 1946, 1949, 1975,
                         4080, and 4081


                                         30
  Table E-2. Second Data Call Questions Reviewed and Sites Not Visited (cont’d)

     DFAS Sites                                Question Number
                                    Answered                    Not Applicable
DFAS Pacific,            1901-1906, 1910, 1911, 1913,     1400-1417, 1420, 1421,
Hawaii (Field Site)      1915-1919, 1921, 1925, 1926,     1504, 1505, 1900, 1914,
                         1932, 1936, 1937, 1945, 1946,    1961, 1964, 1965, 1975-
                         1949, 4080, and 4081             1977, 4000, and 4072-4074
DFAS Pensacola Naval     1901-1905, 1910, 1911, 1913,     1400-1417, 1420, 1421,
Air Station,             1915-1919, 1923, 1925, 1926,     1504, 1505, 1900, 1906,
Florida                  1932, 1935-1937, 1945, 1946,     1914, 1921, 1961-1965,
(Field Site)             1949, 4080, and 4081             1975-1977, 4000, and 4072-
                                                          4074
DFAS Rock Island,        1901-1905, 1910, 1911, 1913,     1400-1417, 1420, 1421,
Illinois                 1915-1919, 1925, 1926, 1932,     1504, 1505, 1900, 1906,
(Field Site)             1936, 1937, 1945, 1946, 1949,    1914, 1920, 1921, 1961,
                         4080, and 4081                   1964, 1965, 1975-1977,
                                                          4000, and 4072- 4074
DFAS Rome,               1501, 1901-1905, 1910, 1911,     1400-1417, 1420, 1421,
New York                 1913, 1915-1919, 1922, 1925,     1504, 1505, 1900, 1906,
(Field Site)             1926, 1932, 1936, 1937, 1945,    1914, 1920, 1921, 1948,
                         1946, 1949, 1975, 4080, and      1961, 1964, 1965, 1976,
                         4081                             1977, 4000, and 4072-4074
DFAS San Antonio,        1501, 1901-1906, 1910-1913,      1400-1417, 1420, 1421,
Texas                    1915-1919, 1921, 1925, 1926,     1504, 1505, 1914, 1961,
(Field Site)             1932, 1936, 1945, 1946, 1949,    1964, 1965, 1976, 1977,
                         1975, 4080, and 4081             4000, and 4072-4074
DFAS San Bernardino,     1400-1406, 1408-1417, 1420,      1504, 1505, 1912, 1914,
California               1421, 1501, 1901-1906, 1909-     1961, 1964, 1965, 1976,
(Field and Stand-alone   1911, 1913, 1915-1919, 1921,     1977, 4000, and 4072-4074
Site)                    1926, 1932, 1936, 1938, 1939,
                         1945, 1946, 1975, 4080, and
                         4081
DFAS San Diego,          1501, 1901-1905, 1910-1913,      1400-1417, 1420, 1421,
California               1915-1919, 1925, 1926, 1932,     1504, 1505, 1906, 1914,
(Field Site)             1936, 1945, 1946, 1949, 1975,    1921, 1961, 1964, 1965,
                         4080, and 4081                   1976, 1977, 4000, and
                                                          4072-4074
DFAS Seaside,            1901-1905, 1910, 1911, 1913,     1400-1417, 1420, 1421,
California               1915-1919, 1922, 1925, 1926,     1501, 1504, 1505, 1906,
(Field Site)             1932, 1933, 1936, 1945, 1946,    1912, 1914, 1920, 1921,
                         1949, 1975, 4080, and 4081       1948, 1961, 1964, 1965,
                                                          1976, 1977, 4000, and
                                                          4072-4074
DFAS St. Louis,          1400-1406, 1408-1417, 1420,      1504, 1505, 1914, 1920,
Missouri                 1421, 1501, 1901-1906, 1910-     1921, 1961, 1964, 1965,
(Field and Stand-alone   1913, 1915-1919, 1925, 1926,     1976, 1977, 4000, and
Site)                    1932, 1936, 1938, 1945, 1946,    4072-4074
                         1949, 1975, 4080, and 4081

                                         31
  Table E-2. Second Data Call Questions Reviewed and Sites Not Visited (cont’d)

      DFAS Sites                             Question Number
                                 Answered                     Not Applicable
Aberdeen Proving       1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Ground,                1949, 4080, and 4081             1504, 1505, 1903, 1914,
Maryland                                                1922, 1925, 1965, 1976,
(DMPO)                                                  1977, 4000, and 4072-4074
Fort Belvoir,          1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Virginia               1949, 4080, 4081, and 4099-      1504, 1505, 1903, 1914,
(DMPO)                 4103                             1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Benning,          1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Georgia                1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Bliss,            1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Texas                  1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072- 4074
Fort Bragg,            1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
North Carolina         1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Buchanan,         1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Puerto Rico            1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072- 4074
Fort Campbell,         1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Kentucky               1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Carson,           1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Colorado               1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Drum,             1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
New York               1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Eustis,           1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Virginia               1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Gordon,           1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Georgia                1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074



                                       32
  Table E-2. Second Data Call Questions Reviewed and Sites Not Visited (cont’d)

      DFAS Sites                            Question Number
                                 Answered                    Not Applicable
Fort Hood,             1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Texas                  1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Fort Huachuca,         1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Arizona                1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Fort Irwin,            1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
California             1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Fort Jackson,          1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
South Carolina         1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Fort Knox,             1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Kentucky               1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Fort Leavenworth,      1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Kansas                 1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Fort Lee,              1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Virginia               1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Fort Leonard Wood,     1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Missouri               1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072- 4074
Fort Lewis,            1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Washington             1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072- 4074
Fort McCoy,            1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Wisconsin              1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Fort McPherson,        1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Georgia                1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074


                                       33
  Table E-2. Second Data Call Questions Reviewed and Sites Not Visited (cont’d)

      DFAS Sites                             Question Number
                                  Answered                    Not Applicable
Fort Meade,            1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Maryland               1949, 4080, 4081, and 4099-      1504, 1505, 1903, 1914,
(DMPO)                 4103                             1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Monroe,           1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Virginia               4080, and 4081                   1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1965, 1976, 1977,
                                                        4000, and 4072-4074
Fort Myer,             1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Virginia               4080, 4081, and 4099-4103        1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1965, 1976, 1977,
                                                        4000, and 4072-4074
Fort Polk,             1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Louisiana              1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Richardson,       1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Alaska                 1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Riley,            1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Kansas                 1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Rucker,           1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Alabama                1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Sam Houston,      1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Texas                  1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Shafter,          1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Hawaii                 1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Stewart,          1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Georgia                1949, 4080, and 4081             1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1925, 1965, 1976,
                                                        1977, 4000, and 4072-4074
Fort Story,            1910, 1911, 1915, 1917, 1948,    1400-1417, 1420, 1421,
Virginia               4080, and 4081                   1504, 1505, 1903, 1914,
(DMPO)                                                  1922, 1965, 1976, 1977,
                                                        4000, and 4072-4074



                                       34
  Table E-2. Second Data Call Questions Reviewed and Sites Not Visited (cont’d)

     DFAS Sites                             Question Number
                                  Answered                   Not Applicable
McDill AFB,            1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Florida                4080, and 4081                  1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1965, 1976, 1977,
                                                       4000, and 4072-4074
Pentagon,              1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Virginia               4080, and 4081                  1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1965, 1976, 1977,
                                                       4000, and 4072-4074
Presidio Monterey,     1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
California             1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Redstone Arsenal,      1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Alabama                1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Schofield Barracks,    1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Hawaii                 1949, 4080, and 4081            1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Walter Reed Army       1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Medical Center,        4080, 4081, and 4099-4103       1504, 1505, 1903, 1914,
Maryland                                               1922, 1965, 1976, 1977,
(DMPO)                                                 4000, and 4072-4074
West Point,            1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
New York               1949, 4080, 4081                1504, 1505, 1903, 1914,
(DMPO)                                                 1922, 1925, 1965, 1976,
                                                       1977, 4000, and 4072-4074
Hickam AFB,            1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Hawaii                 4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                  1965, 1976, 1977, 4000,
                                                       and 4072-4074
Hill AFB,              1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Utah                   4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                  1965, 1976, 1977, 4000,
                                                       and 4072-4074
Lackland AFB,          1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Texas                  4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                  1965, 1976, 1977, 4000,
                                                       and 4072- 4074
Langley,               1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Virginia               4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                  1965, 1976, 1977, 4000,
                                                       and 4072-4074


                                       35
  Table E-2. Second Data Call Questions Reviewed and Sites Not Visited (cont’d)

     DFAS Sites                                Question Number
                                     Answered                   Not Applicable
Maxwell AFB,              1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Alabama                   4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                     1965, 1976, 1977, 4000,
                                                          and 4072-4074
Peterson Field Military   1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Residence,                4080, and 4081                  1504, 1505, 1903, 1914,
Colorado                                                  1965, 1976, 1977, 4000,
(MSA)                                                     and 4072-4074
Randolph AFB,             1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Texas                     4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                     1965, 1976, 1977, 4000,
                                                          and 4072-4074
Scott AFB,                1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Illinois                  4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                     1965, 1976, 1977, 4000,
                                                          and 4072-4074
Tinker AFB,               1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Oklahoma                  4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                     1965, 1976, 1977, 4000,
                                                          and 4072-4074
Tyndall AFB,              1910, 1911, 1915, 1917, 4080,   1400-1417, 1420, 1421,
Florida                   and 4081                        1504, 1505, 1903, 1914,
(MSA)                                                     1965, 1976, 1977, 4000,
                                                          and 4072-4074
Warner-Robbins AFB,       1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Georgia                   4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                     1965, 1976, 1977, 4000,
                                                          and 4072-4074
Wright-Patterson AFB,     1910, 1911, 1915, 1917, 1947,   1400-1417, 1420, 1421,
Ohio                      4080, and 4081                  1504, 1505, 1903, 1914,
(MSA)                                                     1965, 1976, 1977, 4000,
                                                          and 4072-4074
Carlisle Barracks,        1910, 1911, 1915, 1917, 1948,   1400-1417, 1420, 1421,
Pennsylvania              4080, and 4081                  1504, 1505, 1903, 1914,
(Military and Civilian                                    1922, 1965, 1976, 1977,
Pay)                                                      4000, and 4072-4074
Hunter Army Airfield,     1910, 1911, 1915, 1917, 4080,   1400-1417, 1420, 1421,
Georgia                   and 4081                        1504, 1505, 1903, 1914,
(Military and Civilian                                    1965, 1976, 1977, 4000,
Pay)                                                      and 4072-4074
Cleveland Bratenahl,      1400-1406, 1408-1417, 1420,     1504, 1505, 1903, 1905,
Ohio                      1421, 1901, 1902, 1904, 1910,   1913, 1914, 1961-1965,
(TSO and Stand-alone      1911, 1915, 1917, 1918, 1932,   1976, 1977, 4000, and
Site)                     1935, 1945, 1946, 4080, and     4072-4074
                          4081


                                          36
  Table E-2. Second Data Call Questions Reviewed and Sites Not Visited (cont’d)

     DFAS Sites                               Question Number
                                   Answered                    Not Applicable
Mechanicsburg,          1910, 1911, 1915, 1917, 1935,    1400-1417, 1420, 1421,
Pennsylvania            4080, and 4081                   1504, 1505, 1903, 1914,
(TSO)                                                    1962, 1963, 1965, 1976,
                                                         1977, 4000, and 4072-4074
Patuxent River,         1901, 1902, 1904, 1910, 1911,    1400-1417, 1420, 1421,
Maryland                1915, 1917, 1918, 1932, 1935,    1501, 1504, 1505, 1903,
(TSO)                   1945, 1946, 1975, 4080, and      1905, 1913, 1914, 1961-
                        4081                             1965, 1976, 1977, 4000,
                                                         and 4072-4074
Pensacola Saufley       1901, 1902, 1904, 1910, 1911,    1400-1417, 1420, 1421,
Field,                  1915, 1917, 1918, 1932, 1935,    1504, 1505, 1903, 1905,
Florida                 1945, 1946, 4080, and 4081       1913, 1914, 1961-1965,
(TSO)                                                    1975-1977, 4000, and 4072-
                                                         4074
Quantico,               1910, 1911, 1915, 1917, 1947,
Virginia                4080, 4081, and 4099- 4103       1400-1417, 1420, 1421,
(Accounting)                                             1504, 1505, 1903, 1914,
                                                         1919, 1921, 1965, 1976,
                                                         1977, 4000, and 4072-4074
Red River Army          1901, 1903, 1904, 1910, 1911,    1400-1417, 1420, 1421,
Depot, Texas            1915, 1917, 1918, 1920, 1921,    1504, 1505, 1902, 1905,
(Accounting Non-        1932, 1935, 1945, 1946, 4080,    1906, 1913, 1914, 1919,
appropriated Funds)     and 4081                         1961-1965, 1976, 1977,
                                                         4000, and 4072-4074
Southbridge,            1901, 1910, 1911, 1913, 1915,    1400-1417, 1420, 1421,
Massachusetts           1917, 1918, 1937, 1945, 1946,    1501, 1504, 1505, 1900,
(Corporate Resources)   1975, 4080, and 4081             1902, 1903, 1905, 1912,
                                                         1914, 1961, 1964, 1965,
                                                         1976, 1977, 4000, and
                                                         4072-4074




                                        37
Appendix F. Scenario Specific Data Call
       Table F-1. Scenario Specific Data Call Sites Visited and Questions Reviewed

           DFAS Site                              Question Number
                                        Answered               Not Applicable
DFAS Headquarters                6139, 6146-6167, 6195- 6168-6194
Arlington, Virginia              6221, 6228, and 6231-
                                 6233
DFAS Cleveland,                  6125-6139, 6146-6152,     6153-6168, 6170-6194,
Ohio                             6169, 6195-6221, 6229,    6228, 6231, and 6232
(Central Site)                   6230, and 6233
DFAS Columbus,                   6125-6152, 6171, 6195- 6153-6170, 6172-6194,
Ohio                             6222, 6225, 6229, 6230, 6228, 6231, and 6232
(Central Site)                   and 6233
DFAS Indianapolis,               6125-6152, 6174, 6195- 6153-6173, 6175-6194,
Indiana                          6221, 6224, 6227, 6229, 6228, 6231, and 6232
(Central Site)                   6230, and 6233
DFAS Kansas City,                6125-6138, 6146-6152,     6153-6174, 6176-6194,
Missouri                         6175, 6195-6221, 6229,    6228, 6231, and 6232
(Central Site)                   6230, and 6233




                                       38
 Table F-2. Scenario Specific Data Call Questions Reviewed and Sites Not Visited

           DFAS Site                              Question Number
                                         Answered               Not Applicable
DFAS Denver,                      6125-6139, 6146-6152,    6153-6172, 6174-6194,
Colorado                          6173, 6195-6221, 6223,   6228, 6231, and 6232
(Central Site)                    6226, 6229, 6230, and
                                  6233
DFAS Charleston,                  6132-6138, 6139-6152,    6153-6167, 6169-6194,
South Carolina (Field Site)       6168, and 6195-6221      6228, and 6231-6233
DFAS Dayton, Ohio                 6139-6152, 6172, 6195- 6153-6171, 6173-6194,
(Field Site)                      6221, and 6233           6228, 6231, and 6232
DFAS Lawton/Fort Sill,            6132-6152, 6176, 6195- 6153-6175, 6177-6194,
Oklahoma (Field Site)             6221, and 6233           6228, 6231, and 6232
DFAS Lexington,                   6139-6152, 6177, 6195- 6132-6138, 6153-6176,
Kentucky                          6221, and 6233           6178-6194, 6228, 6231,
(Field Site)                                               and 6232
DFAS Limestone,                   6139-6152, 6178, 6195- 6153-6177, 6179-6194,
Maine (Field Site)                6221, and 6233           6228, 6231, and 6232
DFAS Norfolk Naval Station        6139-6152, 6179, 6195- 6132-6138, 6153-6178,
Virginia,                         6221, and 6233           6180-6194, 6228, 6231,
(Field Site)                                               and 6232
DFAS Oakland, California          6146-6152, 6180, and     6153-6179, 6181-6194,
(Field Site)                      6195-6221                6228, and 6231-6233
DFAS Omaha, Nebraska              6139-6152, 6181, 6195- 6153-6180, 6182-6194,
(Field Site)                      6221, and 6233           6228, 6231, and 6232
DFAS Orlando, Florida             6132-6152, 6182, 6195- 6153-6181, 6183-6194,
(Field Site)                      6221, and 6233           6228, 6231, and 6232
DFAS Pacific,                     6139-6152, 6183, 6195- 6132-6138, 6153-6182,
Hawaii                            6221, and 6233           6184-6194, 6228, 6231,
(Field Site)                                               and 6232
DFAS Pensacola, Florida           6132-6152, 6185, 6195- 6153-6184, 6186-6194,
(Field Site)                      6221, and 6233           6228, 6231, and 6232
DFAS Rock Island, Illinois        6132-6152, 6188, and     6153-6187, 6189-6194,
(Field Site)                      6195-6221                6228, and 6231-6233
DFAS Rome, New York               6132-6152, 6189, and     6153-6188, 6190-6194,
(Field Site)                      6195-6221                6228, and 6231-6233
DFAS San Antonio, Texas           6132-6152, 6190, 6195- 6153-6189, 6191-6194,
(Field Site)                      6221, and 6233           6228, 6231, and 6232
DFAS San Bernardino, California   6139-6152, 6191, 6195- 6153-6190, 6192-6194,
(Field Site)                      6221, and 6233           6228, 6231, and 6232
DFAS San Diego, California        6139-6152, 6192, 6195- 6132-6138, 6153-6191,
(Field Site)                      6221, and 6233           6193-6194, 6228, 6231,
                                                           and 6232
DFAS Seaside, California          6139-6152, 6193, 6195- 6132-6138, 6153-6192,
(Field Site)                      6221, and 6233           6194, 6228, 6231, and
                                                           6232
DFAS St. Louis, Missouri          6132-6152, 6194, 6195- 6153-6193, 6228, 6231,
(Field Site)                      6221, and 6233           and 6232

                                        39
          Table F-2. Scenario Specific Data Call Questions Reviewed and
                            Sites Not Visited (cont’d)

           DFAS Sites                               Question Number
                                          Answered               Not Applicable
Cleveland Bratenahl, Ohio          6195-6221                 6146-6194, 6228, and
(TSO)                                                        6231-6233
Patuxent River, Maryland           6146-6152, 6184, 6195- 6153-6183, 6185-6194,
(TSO)                              6221, 6229, and 6230      6228, and 6231-6233
Pensacola Saufley Field, Florida   6146-6152, 6186, 6195- 6153-6185, 6187-6194,
(TSO)                              6221, 6229, and 6230      6228, and 6231-6233
Red River Army Depot, Texas        6146-6152, 6187, and      6153-6186, 6188-6194,
(Accounting Non-appropriated       6195-6221                 6228, and 6231-6233
Funds)




                                         40
Appendix G. Revalidation of Capacity Analysis
            and Second Data Calls
Table G-1. Revalidation of Capacity Analysis and Second Data Calls Sites Visited
                            and Questions Reviewed

           DFAS Site                              Question Number
                                                     Revalidated
DFAS Headquarters Arlington,    24, 27, 319, 325, 347, 358, 363, 365, 369, 371, 376,
Virginia                        383, 386, 389, 390, 392-399, 403-410, 412-428, 430,
(Headquarters)                  431, 435, 438-441, 443, 447, 457, 462, 463, 466,
                                582, 627, 1400-1417, 1420, and 1421
DFAS Cleveland,                 24, 27, 311, 317-319, 325, 347, 351, 353, 358-361,
Ohio                            363, 365, 366, 369-371, 375-377, 380, 383, 386,
(Central Site)                  387, 389, 391, 393, 395, 396, 398, 403-404, 406-
                                410, 412, 413, 415, 416, 419-427, 430, 431, 434,
                                435, 438-440, 456, 457, 479, 582, 627, and 1407
DFAS Columbus,                  24, 27, 301, 318, 319, 325, 347, 354, 358, 362-366,
Ohio                            371, 373, 376, 382, 383, 385-389, 391, 393, 395,
(Central Site)                  398, 403-409, 413-416, 418-425, 427, 428, 430, 431,
                                434, 435, 438, 439, 440, 479, 456, 457, and 582
DFAS Denver,                    24, 27, 220, 251, 257, 275, 277, 301, 305, 317, 319,
Colorado                        325, 347, 348, 350-353, 358-361, 363, 365-367,
(Central Site)                  369-371, 373, 376, 377, 380, 383, 386-389, 391,
                                393, 395, 396, 398, 403-410, 412, 415, 416, 418-
                                426, 430, 431, 434, 435, 438-440, 456, 457, 479, and
                                582
DFAS Indianapolis,              24, 27, 311, 314, 316-319, 321, 324, 325, 328, 329,
Indiana                         347, 350, 351, 354, 359, 362, 363, 365, 366, 369-
(Central Site)                  371, 374, 377, 382, 383, 386, 387, 389, 391, 393,
                                395, 396, 398, 403-410, 412, 413, 415, 416, 418-
                                427, 430, 431, 434, 435, 438-440, 447, 448, 456,
                                457, 479, 480, 482, 582, 627, and 1407
DFAS Kansas City,               24, 27, 246, 311, 317, 319, 325, 351, 354, 358-361,
Missouri                        363, 365, 366, 369-371, 376, 377, 380, 382, 383,
(Central Site)                  386, 387, 389, 391, 393, 395, 396, 398, 403-410,
                                412, 415, 416, 418-426, 430, 431, 434, 435, 438-
                                440, 456, 457, 479, and 582




                                       41
      Table G-2. Revalidation of Capacity Analysis and Second Data Calls
                   Questions Reviewed and Sites Not Visited

          DFAS Site                               Question Number
                                                     Revalidated
DFAS Charleston,                24, 27, 256, 275, 277, 311, 317-319, 347, 348, 351,
South Carolina                  352, 354, 360, 363, 365, 366, 367, 371, 373, 383,
(Field Site)                    386-388, 393, 403, 407, 415, 420, 430, 435, 456,
                                582, and 627
DFAS Dayton,                    24, 27, 275, 277, 305, 311, 319, 347, 348, 350, 358,
Ohio                            363, 365-367, 369, 371, 373, 376, 383, 386-388,
(Field Site)                    393, 403, 407, 408, 415, 420, 421, 430, 435, 456,
                                457, 582, and 627
DFAS Lawton/Fort Sill,          24, 27, 301, 305, 319, 325, 347, 351, 354, 359, 362,
Oklahoma                        363, 365, 366, 370, 377, 382, 383, 386, 403, 407,
(Field Site)                    408, 415, 420, 421, 430, 435, and 582
DFAS Lexington, Kentucky        24, 27, 311, 319, 347, 354, 363, 365, 366, 383, 386,
(Field Site)                    403, 415, 430, 582, and 1407
DFAS Limestone,                 24, 27, 246, 256, 276, 277, 301, 317, 319, 347, 348,
Maine                           350, 358, 363, 365-367, 369, 371, 373, 376, 383,
(Field Site)                    386-388, 403, 407, 408, 415, 420, 421, 430, 435,
                                456, 582, and 1407
DFAS Norfolk Naval Station,     24, 27, 301, 317, 319, 347, 348, 350, 354, 358, 363,
Virginia                        365, 366, 369, 371, 376, 383, 386, 387, 393, 403,
(Field Site)                    407, 408, 415, 420, 421, 430, 435, and 582
DFAS Oakland, California        24, 27, 311, 319, 347, 365, 366, 371, 386, 387, 403,
(Field Site)                    407, 415, 420, 430, 435, 582, 627, and 1407
DFAS Omaha,                     24, 27, 301, 318, 319, 347, 348, 350, 358, 363, 365-
Nebraska                        367, 369, 371, 373, 376, 383, 386-388, 403, 407,
(Field Site)                    408, 415, 420, 421, 430, 435, 457, and 582
DFAS Orlando,                   24, 27, 215, 276, 277, 311, 317, 319, 347, 354, 362,
Florida                         363, 365-367, 373, 382, 383, 386, 388, 403, 406-
(Field Site)                    408, 415, 419-421, 430, 435, 456, 457, 582, 627, and
                                1407
DFAS Pacific,                   24, 27, 301, 317, 319, 347, 348, 354, 358, 363, 365-
Hawaii                          367, 369, 371, 373, 376, 383, 386-388, 403, 407,
(Field Site)                    408, 415, 420, 430, 435, and 582
DFAS Pensacola,                 24, 27, 301, 314, 316-319, 347, 352, 354, 360, 363,
Florida                         365, 366, 371, 383, 386, 387, 403, 406-408, 415,
(Field Site)                    419-421, 430, 434, 435, and 582
DFAS Rock Island,               24, 27, 301, 319, 347, 354, 362, 363, 365, 366, 382,
Illinois                        383, 386, 403, 407, 408, 415, 420, 421, 430, 435,
(Field Site)                    and 582
DFAS Rome,                      24, 27, 266, 276, 277, 301, 305, 319, 347, 354, 362,
New York                        363, 365, 366, 382, 383, 386, 403, 407, 408, 415,
(Field Site)                    420, 421, 430, 435, 456, 582, and 627
DFAS San Antonio,               24, 27, 305, 311, 319, 347, 348, 350, 354, 358, 362,
Texas                           363, 365-367, 369, 371, 373, 376, 382, 383, 386,
(Field Site)                    387, 388, 403, 407, 415, 420, 430, 435, 457, and 582


                                      42
      Table G-2. Revalidation of Capacity Analysis and Second Data Calls
                 Questions Reviewed and Sites Not Visited (cont’d)

         DFAS Sites                               Question Number
                                                     Revalidated
DFAS San Bernardino,            24, 27, 215, 216, 219, 256, 276, 277, 301, 305, 317,
California                      319, 347, 348, 350, 358, 363, 365-367, 369, 371,
(Field Site)                    373, 376, 383, 386-389, 403, 407, 409, 410, 415,
                                420, 422-424, 430, 435, 438, 439, 456, 457, 582,
                                627, and 1407
DFAS San Diego,                 24, 27, 305, 311, 317, 319, 347, 354, 363, 365, 366,
California                      371, 383, 386, 387, 403, 407, 415, 420, 430, 435,
(Field Site)                    457, 582, and 627
DFAS Seaside,                   24, 27, 301, 319, 347, 351, 354, 359, 363, 365, 366,
California                      377, 383, 386, 403, 404, 407, 415, 416, 420, 430,
(Field Site)                    431, 435, 582, and 627
DFAS St. Louis,                 24, 27, 311, 317, 319, 347, 354, 362, 363, 365, 366,
Missouri                        367, 382, 383, 386, 403, 407, 409, 415, 420, 422,
(Field Site)                    430, 435, 457, 582, 627, and 1407
Aberdeen Proving Ground,        351, 354, 359, 370, 377, 463, and 465
Maryland (DMPO)
Fort Belvoir, Virginia (DMPO)   351, 354, 359, 370, 377, 463, and 465
Fort Benning, Georgia (DMPO)    301, 351, 354, 359, 370, and 377
Fort Bliss, Texas (DMPO)        301, 351, 354, 359, 370, and 377
Fort Bragg, North Carolina      301, 351, 354, 359, 362, 370, 377, and 382
(DMPO)
Fort Buchanan, Puerto Rico      301, 351, 354, 359, 370, and 377
(DMPO)
Fort Campbell, Kentucky         301, 351, 354, 359, 370, and 377
(DMPO)
Fort Carson, Colorado (DMPO)    301, 351, 354, 359, 370, and 377
Fort Drum, New York (DMPO)      301, 351, 354, 359, 370, and 377
Fort Eustis, Virginia (DMPO)    301, 351, 354, 359, 370, and 377
Fort Gordon, Georgia (DMPO)     301, 351, 354, 359, 370, and 377
Fort Hood, Texas (DMPO)         301, 351, 354, 359, 362, 370, 377, and 382
Fort Huachuca, Arizona (DMPO)   301, 351, 354, 359, 370, and 377
Fort Irwin, California (DMPO)   301, 351, 354, 359, 370, and 377
Fort Jackson, South Carolina    301, 351, 354, 359, 370, and 377
(DMPO)
Fort Knox, Kentucky (DMPO)      301, 351, 354, 359, 370, and 377
Fort Leavenworth, Kansas        301, 351, 354, 359, 370, and 377
(DMPO)
Fort Lee, Virginia              301, 351, 354, 359, 370, and 377
(DMPO)
Fort Leonard Wood, Missouri     301, 351, 354, 359, 370, and 377
(DMPO)
Fort Lewis, Washington          301, 351, 354, 359, 362, 370, 377 and 382
(DMPO)
Fort McCoy, Wisconsin (DMPO)    301, 351, 354, 359, 370, and 377
                                       43
      Table G-2. Revalidation of Capacity Analysis and Second Data Calls
                 Questions Reviewed and Sites Not Visited (cont’d)

          DFAS Sites                               Question Number
                                                       Revalidated
Fort McPherson, Georgia           301, 351, 354, 359, 370, and 377
(DMPO)
Fort Meade, Maryland (DMPO)       351, 354, 359, 370, 377, 463, and 465
Fort Monroe, Virginia (DMPO)      301, 351, 359, 370, and 377
Fort Myer, Virginia (DMPO)        351, 359, 370, 377, 463, and 465
Fort Polk, Louisiana (DMPO)       301, 351, 354, 359, 370, and 377
Fort Richardson, Alaska (DMPO)    301, 351, 354, 359, 362, 370, 377, and 382
Fort Riley, Kansas (DMPO)         301, 351, 354, 359, 370, and 377
Fort Rucker, Alabama (DMPO)       301, 351, 354, 359, 370, and 377
Fort Sam Houston, Texas           301, 351, 354, 359, 370, and 377
(DMPO)
Fort Shafter, Hawaii (DMPO)       301, 351, 354, 359, 370, and 377
Fort Stewart, Georgia (DMPO)      301, 351, 354, 359, 362, 370, 377, and 382
Fort Story, Virginia (DMPO)       301, 351, 359, 370, and 377
McDill AFB, Florida (DMPO)        351, 359, 370, and 377
Pentagon, Virginia (DMPO)         351, 359, 370, 377, 468, and 471
Presidio Monterey, California     301, 351, 354, 359, 370, and 377
(DMPO)
Redstone Arsenal, Alabama         301, 351, 354, 359, 370, and 377
(DMPO)
Schofield Barracks, Hawaii        301, 351, 354, 359, 370, and 377
(DMPO)
Walter Reed Army Medical          351, 370, 377, 463, and 465
Center, Maryland (DMPO)
West Point, New York (DMPO)       301, 351, 354, 359, 370, and 377
Hickam AFB, Hawaii (MSA)          301, 371, and 387
Hill AFB, Utah (MSA)              301, 371, and 387
Lackland AFB, Texas (MSA)         301, 371, and 387
Langley, Virginia (MSA)           301, 371, and 387
Maxwell AFB, Alabama (MSA)        301, 371, and 387
Peterson Field Military           301, 371, and 387
Residence, Colorado (MSA)
Randolph AFB, Texas (MSA)         301, 371, and 387
Scott AFB, Illinois (MSA)         301, 311, 371, and 387
Tinker AFB, Oklahoma (MSA)        301, 371, and 387
Tyndall AFB, Florida (MSA)        None
Warner-Robbins AFB, Georgia       301, 371, and 387
(MSA)
Wright-Patterson AFB, Ohio        301, 371, and 387
(MSA)
Carlisle Barracks, Pennsylvania   351, 359, 370, 377, 463, and 465
(Military and Civilian Pay)
Hunter Army Airfield, Georgia     None
(Military and Civilian Pay)


                                         44
      Table G-2. Revalidation of Capacity Analysis and Second Data Calls
                 Questions Reviewed and Sites Not Visited (cont’d)

          DFAS Sites                              Question Number
                                                     Revalidated
Cleveland Bratenahl, Ohio       24, 27, 301, 314, 317, 319, 320, 322, 406, 419, 457,
(TSO)                           and 582
Mechanicsburg, Pennsylvania     301, 406, and 419
(TSO)
Patuxent River, Maryland        24, 27, 246, 317, 319, 406, 419, 434, 457, 462, 466,
(TSO)                           582, and 627
Pensacola Saufley Field,        24, 27, 246, 301, 316, 317, 319, 406, 419, 434, 457,
Florida (TSO)                   and 582
Quantico, Virginia              358, 366, 371, 376, 387, 463, and 465
(Accounting)
Red River Army Depot, Texas     24, 27, 301, 319, 350, 365, 368, 369, 374, 386, 406,
(Accounting Non-appropriated    and 419
Funds)
Southbridge, Massachusetts      24, 27, 246, 311, 317, 319, 403, 408, 415, 421, 430,
(Corporate Resources)           457, and 582




                                       45
Appendix H. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)

     Director, Defense Finance and Accounting Service


Non-Defense Federal Organizations
     Government Accountability Office




                                        46
Defense Finance and Accounting Service
Comments




                      47
Final Report
 Reference




Revised
Page 19




Revised
Page 19




Revised
Page 19




               48
     Final Report
      Reference




     Revised
     Pages 20




     Revised
     Page 20




     Revised
     Page 20




49
Final Report
 Reference




Revised
Page 20




Revised
Pages 21




Revised
Page 21




               50
     Final Report
      Reference




     Revised
     Page 21




51
Final Report
 Reference




Revised
Page 8




               52
     Final Report
      Reference




     Revised
     Page 8,
     Para 4


     Revised
     Page 8,
     Para 4




     Revised
     Page 8,
     Para 4




     Revised
     Page 8,
     Para 4




     Revised
     Page 8,
     Para 4




53
Final Report
 Reference




Revised
Page 8,
Para 4




Revised
Page 8,
Para 4



Revised
Page 8,
Para 4




               54
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report.
